<html>
<title> - INTERNATIONAL CHILD ABDUCTION: IMPLEMENTATION OF THE HAGUE CONVENTION ON CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 INTERNATIONAL CHILD ABDUCTION: IMPLEMENTATION OF THE HAGUE CONVENTION 
           ON CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 14, 1999

                               __________

                           Serial No. 106-89

                               __________

    Printed for the use of the Committee on International Relations



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
63-699                     WASHINGTON : 2000


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                John Herzberg, Professional Staff Member
                     Jill N. Quinn, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Michael P. Forbes, a Representative in Congress 
  from the State of New York.....................................    32
The Honorable Mary Ryan, Assistant Secretary, Bureau of Consular 
  Affairs, U.S. Department of State..............................     4
Richard Rossman, Chief of Staff, Criminal Division, U.S. 
  Department of Justice..........................................     6
Jess Ford, Associate Director, National Security and 
  International Affairs Division, U.S. General Accounting Office.    24
Lady Catherine Meyer, Parent of an Abducted Child................    33
Thomas A. Johnson, Parent of an Abducted Child...................    36
Paul Marinkovich, Parent of an Abducted Child....................    41
Tom Sylvester, Parent of an Abducted Child.......................    45

                                APPENDIX

Prepared Statements:
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York and Chairman, Committee on 
  International Relations........................................    58
Ambassador Mary Ryan.............................................    60
Mr. Richard Rossman..............................................    70
Mr. Jess Ford....................................................    86
Representative Michael P. Forbes.................................    96
Lady Catherine Meyer.............................................    99
Mr. Thomas A. Johnson............................................   116
Mr. Paul Marinkovich.............................................   186
Mr. Tom Sylvester................................................   191

Additional material submitted for the record:

Reader's Digest article, America's Stolen Children, by Daniel 
  Levine, submitted by Rep. Chabot...............................   244
Case files of various parents, submitted by Lady Meyer...........   247
Responses from the U.S. Department of State to Questions for the 
  Record, submitted by Chairman Gilman...........................   288
Open Letter from Ms. Cecilie Finkelstein, a formerly parentally 
  abducted child, submitted by Chairman Gilman...................   339
Letter from the Children's Rights Council to Chairman Gilman, 
  submitted by Chairman Gilman...................................   342

 
             INTERNATIONAL CHILD ABDUCTION: IMPLEMENTATION
              OF THE HAGUE CONVENTION ON CIVIL ASPECTS OF
                      INTERNATIONAL CHILD ABDUCTION

                              ----------


                       House of Representatives,

      Committee on International Relations,
                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Mr. Campbell. [presiding] The House International Relations 
Committee is opening its hearing today and we call to order for 
the subject of international child abduction, implementation of 
The Hague Convention on Civil Aspects of International Child 
Abduction.
    My name is Congressman Tom Campbell. I'm filling in for the 
Chairman, Ben Gilman, who is attending a very important event 
regarding ethnic diversity. He will join us just as soon as 
that meeting allows him to. It should be very shortly. But he 
asked me to open the meeting, lest we inconvenience the 
witnesses by further delay.
    Chairman Gilman has asked the following to be put into the 
record, and I would like everyone's attention to this for a 
moment.
    We have received sad and disturbing news of the deaths of 
three United Nations employees who were killed this week in the 
line of duty in Burundi and in Kosovo. I'd just amend the 
comment to say that I visited Burundi. I'm on the Africa 
Subcommittee. The work that is being done there is essential to 
prevent another genocide.
    Luis Zuniga, a 52-year-old Chilean who headed UNICEF's 
Burundi operation, and 34-year-old WFP logistics officer Saskia 
Von Maijenfeldt, from the Netherlands, were killed during a 
visit to a displaced persons camp in Burundi. It's suspected 
that Hutu extremists did the killing.
    In Kosovo, Valentin Krumov of Bulgaria was beaten and shot 
in the streets of Pristina by Albanian youths. Last year, for 
the first time, more United Nations civilian workers met 
violent deaths than did United Nations military peacekeepers. 
The sad total is 27.
    Chairman Gilman asked the Committee to observe a moment of 
silence in memory of these three international civil servants, 
so let's do so.
    I thank my colleagues, the witnesses, and all in 
attendance.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Campbell. This morning's hearing is on a very important 
subject, on the question of international abduction of children 
and the implementation or failure fully to implement The Hague 
Convention. We will be hearing from Administration witnesses. 
We will be hearing from our colleague, Congressman Forbes. We 
will be hearing from the parents of children who have been 
abducted, and who have found the implementation of The Hague 
Convention to be less than efficient.
    Some of the questions we will hope to explore are the 
report that the State Department supplies to the Congress, 
pursuant to legislation, regarding implementation of The Hague 
Convention; some criticisms--and some constructive criticisms, 
I'm certain, among them--for how The Hague Convention can be 
better applied. We also have witnesses who can speak to the 
application of The Hague Convention between European nations. 
We're honored by the presence of the witnesses, particularly, 
I'd say, the parents, who can tell us from their own personal 
experiences how this important international convention can be 
better implemented.
    Out of courtesy to the witnesses, that is the end of my 
opening statement.
    I now yield to the Ranking Democratic Member of the 
Committee, the Honorable Sam Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I join my colleague in commending Chairman Gilman for 
having this hearing, and thank the witnesses.
    Obviously, it's a particularly difficult, emotional issue 
they bring before us. We as their elected Representatives owe a 
better international system to people who have suffered so 
tremendously. We particularly want to thank Lady Meyer for her 
tireless crusade on behalf of abducted children, and our 
colleague, Mr. Forbes, who has done so much work in this area.
    In my own district, I was confronted with this when a 
constituent's children were abducted by her husband to Egypt. 
The woman, an American citizen, traveled with her husband and 
the children. While there, he divorced her, and took the 
children. Egypt is not a party to The Hague Convention. The 
constituent talked to the State Department to get information 
about the children. She became desperate and hired a mercenary 
to get her children back. He was captured and jailed.
    In the meantime, she discovered she was pregnant and the 
husband has since threatened to abduct the fourth child. The 
woman is now in hiding. We in the Congress and the 
Administration need to work together to come up with a much 
more effective system.
    In the world that we live in today, which is pretty much a 
world without borders, we are going to see an increase in 
binational marriages. The need for a Hague Convention that 
works to deal with child abduction issues is clearly going to 
increase. U.S. citizens holding passports between 1974 and 1998 
went up 171 percent, and passengers traveling from the U.S. 
overseas between 1960 and 1998 went up 868 percent from 5.5 
million to 53.2 million. As this world gets smaller and more 
people are traveling, there will be more binational marriages.
    We in Congress are not guilt-free here. When you take a 
look at the workload of the State Department individuals that 
deal with these issues, the recommendation by the GAO is that 
they handle a case load of about 35 cases at a time. My 
understanding is that in the last Fiscal Year, the average case 
load was 150 cases, not 35, but 150. I'm happy to note that the 
State Department wants 10 additional slots, but this would 
still bring the average case load down only to 75, which is 
still more than twice what is recommended.
    Oftentimes, the State Department budget gets caught in all 
kinds of political side issues, as if there's no impact on 
American citizens. Whether it's passport or business activity, 
or national security, or, in this case, parents having access 
to their children, our failure to adequately fund this account 
comes home to affect every one of our constituents. We need to 
make sure that we fulfill our responsibilities to make sure 
that when the parents who pay taxes expect to have service from 
their government representatives, that they're staffed at a 
level that they can at least get the service they should get as 
American citizens.
    Thank you, and I yield back the balance of my time.
    Mr. Campbell. Thank you, Mr. Gejdenson.
    Mr. Chabot has requested a courtesy to go next up, and we 
would wish to recognize him for his opening statement.
    Mr. Chabot. Thank you, Mr. Chairman. I'll be very brief, 
because I know we're all looking forward to hearing the very 
important testimony of the witnesses here this morning and, 
perhaps, this afternoon. This is a very important hearing and I 
want to thank Chairman Gilman and also the acting Chairman, Mr. 
Campbell, and the Committee staff for their hard work in making 
this hearing a reality.
    I know that all Members of the Committee have made 
themselves acquainted with the cases of the witnesses that will 
be on the third panel; those parents of abducted or wrongly 
detained children.
    I am most familiar with the case of Mr. Tom Sylvester who 
is from Cincinnati, who has, I believe, suffered from a grave 
miscarriage of justice in the case of his abducted daughter, 
Carina.
    I know that my colleagues, Congressman Rob Portman, who I 
believe will be here today, and our Senior Senator, Senator 
Mike DeWine, have also worked on this case, and we're all 
hopeful that today's Committee action will have some positive 
impact on what, for Mr. Sylvester, and I know for many other 
parents in this country, has been a terribly agonizing ordeal.
    I look forward to hearing from the witnesses and I thank 
the Chairman for his commitment to this issue and yield back 
the balance of my time.
    Mr. Campbell. Thank you.
    We now begin with the witnesses. We're very pleased to have 
before us, from the State Department, Assistant Secretary Ryan. 
Let me just do a bit of an introduction for her first.
    She holds the title of Ambassador, Career Ambassador, which 
is the honorific given to the most senior and most accomplished 
members of our foreign service. Assistant Secretary of State 
for Consular Affairs is her present working title. She has been 
an Administrator for our embassies overseas. She has served as 
Director of State Department's Gulf War Task Force. She 
assisted the U.N. Special Commission for the inspection and 
destruction of Iraq's weapons of mass destruction. She headed 
our Consular Affairs Bureau, which contains the authority, 
under The Hague Convention, for dealing with abducted children, 
and has been head of that office and the Office of Children's 
Issues since 1993.
    I'll introduce Mr. Rossman at the same time. Richard 
Rossman is the Chief of Staff for the agency within the Justice 
Department that deals with their implementation of The Hague 
Convention within the Department's Criminal Division. Mr. 
Rossman is part of a high-level panel that's reviewing how our 
government has responded to international child abductions. 
He's appearing today as one of the government's top experts. We 
look forward to both of their testimony.
    Ambassador Ryan and Mr. Rossman, you are welcome, in fact, 
invited to summarize. It's more interesting than reading. We 
assure you that your complete statement will be made part of 
the record.
    Ambassador Ryan.

STATEMENT OF MARY RYAN, ASSISTANT SECRETARY, BUREAU OF CONSULAR 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Ryan. Thank you, Mr. Chairman. I am very pleased to 
appear before you today to address the topic of The Hague 
Convention on Civil Aspects of International Child Abduction, 
and I appreciate your willingness to have my prepared statement 
submitted for the record.
    Mr. Campbell. Without objection.
    Ms. Ryan. I am going to touch on the main points of that 
statement now.
    Mr. Chairman, we are very grateful to you for your focusing 
on this issue because there is no greater responsibility than 
the welfare of our children. The protection of Americans abroad 
is the highest priority of the Department of State. The cases 
of children victimized by international parental child 
abduction are some of the most emotional and difficult cases we 
are asked to resolve. Many of these children are dual nationals 
of the United States and of the country to which they were 
abducted, which complicates the situation. I am here today to 
discuss The Hague Convention, but at least an equal number of 
children are abducted yearly to countries not party to that 
Convention.
    The United States was instrumental in the negotiation of 
The Hague Convention to which the United States became party in 
1988. While The Hague Convention does not guarantee a 
particular outcome, it does provide a civil legal tool for 
parents to pursue the return of their abducted or wrongfully 
retained children. The Hague Convention is enforced between the 
United States and 53 other countries. In the first 10 years 
that the United States has been party to The Hague Convention, 
treaty proceedings have resulted in over 2,000 children being 
returned to the United States, and has also deterred an untold 
number of abductions. Yet thousands more have not been 
returned, and the question remains, why?
    The Hague Convention provides a framework, but it does not 
assume an outcome. Implementation of The Hague Convention 
varies among foreign jurisdictions. We continue to encourage 
other countries to join The Hague Convention and, in fact, for 
the last month, in August, when I was in Japan, I met with a 
Japanese Ministry of Justice official to urge Japan to sign 
onto The Hague Convention.
    In the spring of this year, 1999, the Office of Children's 
Issues, as the U.S. central authority for the Convention, 
prepared a compliance report which found five countries 
noncompliant for different reasons: lack of recognition that 
they were party to The Hague Convention; inability to locate 
the children; nonenforceability of orders; or duration of 
cases. The fact that these countries were found noncompliant is 
of small comfort to the parents waiting to be reunited with 
their children, parents who put their faith in a system that 
failed them.
     Three of these American parents--Paul Marinkovich, Tom 
Johnson, and Tom Sylvester--will testify, along with Lady 
Meyer, on their experiences later. All of these men are loving 
fathers who are being denied access to their children, even 
though they have done everything possible to resolve their 
cases. In Mr. Marinkovich's case, the situation is compounded 
because he doesn't even know where his child is.
    It is important to remember, however, that The Hague 
Convention was a dramatic leap forward in helping children. 
Before the United States was party to The Hague Convention, the 
return rate of children to the United States was 20 percent. 
Now it is 72 percent. The rate of children being returned 
abroad by U.S. courts is even higher. It's 90 percent. 
Diplomatic initiatives with other countries have helped to 
ameliorate the situation in some of these countries.
    After much criticism from other party countries, Germany 
legislatively reduced the number of courts that could hear The 
Hague cases from approximately 600 to 24, and we are hopeful 
that this change will result in more decisions consistent with 
The Hague Convention.
    In spite of the improvements since we joined The Hague 
Convention 10 years ago, Federal agencies and, more 
importantly, parents believe that the Federal response to 
international parental child abduction is inadequate. 
Complaints include the inability to coordinate between civil 
and criminal aspects of their case; lack of information from 
the country in which their child was located; responsiveness of 
the central authority; lack of services available from the 
Federal Government; the lack of an 800 number; and perceived 
indifference to their cases.
     Since the Attorney General's testimony before the Senate 
Foreign Relations Committee last October, the Department of 
State, together with the Department of Justice, has made 
strides to improve services to parents and to develop 
comprehensive information on this issue. A senior policy group 
was formed to evaluate the gaps in the Federal response, and 
prepared a report to the Attorney General on this issue, which 
addressed the gaps.
    I'll go very quickly, Mr. Chairman, just to summarize, 
because I do want to make the point that we think that we have 
now developed an action plan to implement the report's 
recommendations, which I think will be of benefit to the 
parents and to the children. But implementing the action plan 
is going to be expensive. It will have a price tag in the 
millions, and it will take some years to do.
    As a core function of the Department of State, the Office 
of Children's Issues should be funded with appropriated 
resources. I am concerned, Mr. Chairman, that the Department's 
ability to implement these recommendations will be influenced 
by the outcome of the Congress' consideration of the CJS 
appropriations bill for Fiscal Year 2000.
    I am very concerned that the level of funding in that bill 
for the Department of State will significantly delay 
implementation of the action plan. Please note, Mr. Chairman, I 
am not suggesting that funds be earmarked for children's 
issues. The problem for the Department of State is the overall 
funding found in that bill. Considering the complexity of both 
Hague and non-Hague abductions, we must remember that all of 
these cases are centered on children and their need to feel 
secure in their homes and not live in fear of abduction.
    Thank you, Mr. Chairman, for the opportunity to address the 
Committee on this important topic for our children and for 
their parents.
    [The prepared statement of Ms. Ryan appears in the 
appendix.]
    Mr. Campbell. Thank you, Ambassador Ryan.
    Mr. Rossman.

    STATEMENT OF RICHARD ROSSMAN, CHIEF OF STAFF, CRIMINAL 
              DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Rossman. Mr. Chairman and Members of the Committee, I 
am very pleased to appear before this Committee on an issue of 
keen importance to the Attorney General. Last fall, the 
Attorney General and Secretary Albright formed a policy group 
to provide senior-level attention to our Federal response to 
this important problem. I've had the pleasure of being one of 
the two representatives from the Department of Justice to serve 
on this group.
    I've submitted a written statement and I would like now to 
concentrate my comments on the criminal enforcement side of the 
issue, although my statement covers the other efforts made by 
the Department of Justice on the programmatic side.
    Mr. Campbell. Without objection, your statement will be 
made part of the record.
    Mr. Rossman. Thank you, Mr. Chairman.
    In 1993, Congress passed the International Parental 
Kidnapping Crime Act, called IPKCA. I'm aware that there have 
been questions and concerns raised about whether this has been 
an effective tool, and I can tell you that it has proven to be 
an important and useful supplement to the existing State laws 
which criminalize parental child abduction in all 50 of our 
States. It can be particularly helpful in those situations 
where a wrongful abduction or retention is made, even in the 
absence of a pre-existing custody order; this is not always a 
criminal act in a particular State, but is, as you know, under 
IPKCA. It also can be useful in certain situations to use the 
availability of the FBI's international investigative resources 
at the earliest stages of an abduction, irrespective of whether 
a case is ultimately prosecuted at the State or Federal level.
    However, it's crucial to understand that the Federal 
criminal statute is not, was not intended to be, and cannot be 
a substitute for civil remedies in obtaining the return of 
internationally abducted children. Prosecutions under this 
statute, as with any Federal criminal statute, are brought by 
Federal prosecutors on their own merits. Once prosecutors 
determine that IPKCA charges may be appropriate under the facts 
of a particular case, only then is it proper to consider the 
impact such charges would have on the very worthy but quite 
different role of obtaining the return of the child.
    We agree with Congress, as stated in the Sense of Congress 
which accompanied the passage of IPKCA, that, when available, 
The Hague Convention should remain the option of first choice 
for a parent who seeks the return of a child. Even when the 
involved foreign country is not a Party to The Hague 
Convention, it is not necessarily the case that IPKCA charges 
will facilitate rather than frustrate child recovery efforts.
    For example, there is at least some anecdotal evidence that 
some foreign judges are reluctant to return a child to the 
United States when one of the parents faces prosecution or 
potential incarceration.
    Moreover, there are real cases, tragic cases, in which the 
IPKCA prosecutions, even when successful, have not resulted in 
the return of the abducted child. For example, in 1995, in the 
eastern district of New York, a father who abducted his 
children and moved with them to Egypt was arrested, tried, and 
convicted after he reentered the United States.
    That's the Ahmad Amer case. He was sentenced to 24 months 
incarceration followed by 1 year of supervised release, with a 
special condition that he return the children to New York. He 
served his term; was released; violated his probation by not 
returning the children; and then served his additional time. He 
is now once again free, and the children remain, tragically, 
abroad.
    Despite these limitations, IPKCA can, in appropriate cases, 
provide an effective vehicle for charging and punishing parents 
who abduct their children and take them overseas. While the 
number of indictments brought during the 5 or 6 years the 
statute has been in effect is still relatively small, we 
continue to train agents and prosecutors on its existence and 
availability, and we expect that number to grow. However, it 
will remain the case that IPKCA supplements, and was not 
intended to preempt the statutes of the 50 States that 
criminalize parental abduction.
    Moreover, the resources of the Department of Justice, 
whether the FBI or the Criminal Division's resources, in 
securing the arrest and extradition of offenders are equally as 
available in State cases as they are under Federal cases under 
IPKCA. Thus we will continue to seek international extradition 
wherever possible and appropriate for violations of State 
parental kidnapping laws as well as for the Federal IPKCA 
statute.
    However, once again, it is important to keep in mind that 
extradition of the abducting parent will often not result in 
the return of the abducted child. We do make efforts to 
coordinate the extradition process with Hague Convention or 
other civil recovery efforts in the foreign country, but there 
are no guarantees.
    The decision to extradite--and, Mr. Chairman, I'll be 
finished in just a moment, if I may--the decision to extradite 
is a decision that must be made on the merits, taking into 
account all the facts, the applicable laws and treaties; and, 
upon the request of the Federal or State Prosecutor, the 
Criminal Division's Office of International Affairs will 
consider asking the State Department to request extradition, 
even if the prospects for ultimate return of the fugitive are 
not great.
    However, we will do so only if we believe that the parental 
kidnapping crime is extraditable under the applicable 
extradition treaty and that other requirements for extradition 
can be met.
    Thanks to recent actions by Congress, extradition for 
parental kidnapping may now be possible from several countries 
from which we could not request extradition just a year ago. 
Last year, Congress passed the Extradition Treaties 
Interpretation Act of 1998 and, pursuant to it, we may now 
interpret kidnapping in our old list treaties to include 
parental kidnapping. So far, officials from 11 foreign 
countries have responded to a State Department survey 
indicating that they, too, interpret our existing list treaties 
to cover these offenses, although some have not yet responded 
formally.
    In short, while Justice Department efforts targeting 
abducting parents cannot and should not take the place of civil 
efforts to obtain the return of abducted children, we will 
continue to make such efforts, charging IPKCA violations and 
seeking extradition on IPKCA or State parental kidnapping 
charges whenever appropriate. Moreover, we are committed to 
assuring that the Department of Justice efforts, whether in the 
criminal arena or in the significant programmatic support of 
our Office of Juvenile Justice and Delinquency Prevention, are 
better coordinated with the Department of State and other 
agencies, and serve to strengthen our response to left-behind 
parents.
    Mr. Chairman, I see you've now joined us. Thank you for 
your time. I appreciate the opportunity to appear before this 
Committee and I would be pleased to try to answer any questions 
you may have.
    [The prepared statement of Mr. Rossman appears in the 
appendix.]
    Chairman Gilman. [presiding] Thank you, Mr. Rossman.
    I want to thank Assistant Secretary Mary Ryan for appearing 
before us. I regret I was delayed due to a ceremony in the 
Statuary Hall on One America. Permit me to take a few moments 
to give some opening remarks and then we'll go to our questions 
by our colleagues.
    This morning's hearing is on an important topic that's 
received too little attention within our own government in the 
past in view of the devastating impact it's had on the lives of 
countless thousands of children and their left-behind parents. 
The magnitude of this problem of international parental 
abduction of children in this age of increasing numbers of 
international marriages, of cheap and easy international 
travel, and an increase in the stress upon marriage bonds is 
only going to increase over time.
    We've convened this hearing with the hope that we will be 
able to focus a spotlight on one aspect of this highly complex 
topic, namely the limitations and the failures of the process 
set forth under The Hague Convention on Civil Aspects of 
International Child Abduction that were intended to provide 
civil remedies that will lead to the prompt return of an 
abducted or wrongfully retained child to his or her country of 
habitual residence. In many cases, The Hague process works, but 
in too many cases, where it does not, the result is a 
heartbreaking, financially devastating, and an infuriating 
experience for the parent attempting to regain his or her 
child. This observation will be borne out by the testimony that 
we will be hearing from the parents who have had to endure this 
tragic experience.
    I believe it is incumbent upon the Congress to spotlight 
this situation, to alert our public to this growing problem, to 
keep the issue under review, and to consider whatever 
additional remedies may be available that will better protect 
the rights of our citizens and our children, as well as those 
of children all over the world who have a right to know and 
have contact with both of their parents.
    I'd like to review some of the things that the Congress has 
already accomplished. In 1993, we enacted the International 
Parental Kidnapping Crime Act, making the removal from our 
Nation of a child by a noncustodial parent a felony. The United 
States is one of the few nations that places international 
parental kidnapping among that category of crime.
    Last year, our State Department authorization legislation 
contained a provision for the Secretary of State to provide a 
report to Congress on the number of cases under The Hague 
Convention that were unresolved after 18 months, and to include 
the list of countries to which children in unresolved cases 
were believed to be abducted. This year, our State Department 
authorization asked for this report to be expanded to include 
the list of Hague signatory countries whose legal systems may 
lack a prompt and effective method for enforcement of child 
court orders or a doctrine of comity or where, due to other 
factors, there is substantial possibility that an order of 
return or access under The Hague Convention proceeding for 
United States custody, access, or visitation order is not being 
promptly enforced.
    I'd like to note, too, for the record, and for the benefit 
of our witnesses for the State Department, that the intent of 
the Congress in requiring this report is to provide to our 
parents and to our judicial officials some body of information 
that will allow a judge, in deciding a custody dispute or 
settling the terms of a custodial order for a child, to make an 
informed judgment where there is a significant possibility that 
one parent may take the child to another country. Congress also 
believes there should be a publicly available listing of 
countries that are derelict in fulfilling their international 
obligations.
    As I've already noted, today's hearing is to focus on The 
Hague Convention, and we certainly recognize that many cases of 
international child abduction occur in nations that are not 
signatory to The Hague Convention. We believe, however, that it 
is important to recognize the weaknesses and the defects of The 
Hague process in order to correct them so that it may indeed 
serve the purpose that our government intended when it ratified 
this Hague Convention. That is our immediate purpose today.
    So, in consideration of this matter, I'd like to point out 
that the issue with which we should be most concerned is the 
fact that, by and large, our Nation does a good job in 
assisting foreign parents in return of their children to their 
habitual place of residence. We expend our taxpayers' dollars 
to make certain that the National Center for Missing and 
Exploited Children and our State Department's Office of 
Children's Issues have adequate resources to carry out their 
obligations under The Hague Convention.
    It is apparent that other governments who have undertaken 
the same type of commitment under The Hague Convention are 
failing to live up to the letter and spirit of the law, and so 
often it is our citizens who are victimized by this failure. 
So, again, I want to thank our witnesses who are here for their 
testimony.
    Permit me to open up by addressing Secretary Ryan. Our 
State Department authorization, H.R. 2415 for Fiscal Year 2000 
and Fiscal Year 2001, contains the provision for the Secretary 
of State to continue to report on unresolved Hague cases in an 
expanded format which includes information on Hague signatory 
countries which lack a prompt and effective method for 
enforcement of civil court orders or where, due to the absence 
of a doctrine of comity or other factors, there is a 
substantial possibility that an order of return or access, 
under The Hague Convention proceedings or United States 
custody, access, or visitation order will not be promptly 
enforced.
    Whether or not the bill is enacted and signed into law by 
the President, can we obtain a commitment from you today that 
this report, in an expanded form, will be provided for in the 
present and next Fiscal Year?
    Ms. Ryan. Mr. Chairman, certainly we want to cooperate with 
you and we want to give you all of the information that you 
need to make informed judgments about The Hague Convention. My 
concern on the compilation of this report is that it takes 
officers and staff away from what I see as their primary 
responsibility, which is working with the parents to try to 
effect the return of the children. We will give you all the 
information that you need and that you want, but expanding the 
requirement is going to be costly to us in terms of staff time.
    Chairman Gilman. Just how costly would it be?
    Ms. Ryan. Putting a report together for the Congress does 
take people away from what they usually do so that they can 
compile the report.
    Chairman Gilman. I would think that this is important 
enough to assign someone to provide that kind of a report so 
that we can have some kind of an acknowledgement of just how 
serious the problem is out there, and where the problem lies. 
So we would welcome if you could give that attention.
    Ambassador Ryan, in a series of articles in Insight 
Magazine last spring, the State Department was criticized for 
many of the same reasons that the State Department has been 
hearing about for years concerning the international abduction 
of our American citizens. You responded to Insight Magazine in 
a letter published in the April 19 issue, and defended your 
record, and the performance of the Office of Children's Issues, 
by asserting that these cases are emotional international 
parental child custody disputes.
    Did you mean to imply by that response that international 
child abduction in violation of U.S. State and Federal law, and 
often involving violations of international treaties, is a 
private matter? Are you aware that many of the governments that 
haven't been identified as violators of The Hague Convention 
use this same line of argument to dismiss the rights and claims 
of our U.S. parents attempting to regain their children?
    Ms. Ryan. Mr. Chairman, I'm very proud of the fact that I 
created the Office of Children's Issues when I came into the 
Bureau of Consular Affairs and when I came back to the Bureau 
of Consular Affairs in 1993. I had been briefly in the Bureau 
in 1990, and I thought that we were not paying enough attention 
to these issues. So that, when I returned, I created the 
office. We have been attempting to build the staff of that 
office over the last 6 years.
    The issue of international child abduction is a civil legal 
matter. It can be a criminal matter if one parent brings 
criminal charges against the other, but often bringing criminal 
charges does not result in the return of the child. What we 
want is the return of the child. We want to work as closely as 
possible with the parents to effect that return.
    Chairman Gilman. Secretary Ryan, I have a letter that was 
sent to Mr. John Lebeau, who I believe is in attendance today, 
by the Director of the Office of Passport Policy and Advisory 
Services, dated August 19, 1996. That letter is in response to 
Mr. Lebeau's request for information on whether his two 
children, who had been abducted by their Danish mother, had 
been issued U.S. passports.
    The State Department's letter says, ``A search of our 
records has failed to locate an application for either child.'' 
Subsequently, Mr. Lebeau discovered that passports had indeed 
been issued in July 1999, a month before the date of the State 
Department's letter, and the children had already been taken 
out of the country by their mother.
    Was this a failure of the system, or just an extraordinary 
piece of bad luck for Mr. Lebeau, who probably could have been 
spared years of anguish and tremendous expense had he received 
timely and accurate information? Do we need to strengthen the 
passport issuance and revocation practices to try to preempt 
abductions, and also explore what can be done concerning 
foreign passports that the abductor and the children might 
travel under?
    Ms. Ryan. Based on what you've just said, Mr. Chairman, I 
would have to say it was a failure of the system. We should 
have known that those passports were issued, and we should have 
told him that they were issued. I don't know how it happened 
that we had no information or we couldn't find the information. 
We are in the process of moving that division from Passports 
into Children's Issues so that we can keep a better eye on this 
very type of thing. I can only apologize to Mr. Lebeau, which I 
really know is woefully inadequate. But it was a failure of 
ours.
    Chairman Gilman. I just want to correct the record. Mr. 
Lebeau discovered that the passports had indeed been issued in 
July 1996. I had recited 1999. I thank you for your response. 
Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Secretary Ryan, can 
you just quickly give me the time line for the recommendations 
from the task force and the resources?
    Ms. Ryan. Some we've already started to do. One of the 
recommendations was to create a tracking system of cases, both 
incoming and outgoing, and we are well on our way to doing 
that. We have requested an additional 13 staff members for the 
office, and we are in the process of waiting to see what 
happens with----
    Mr. Gejdenson. That request goes to the Secretary?
    Ms. Ryan. That request----
    Mr. Gejdenson. Your budget request.
    Ms. Ryan. The request for additional positions goes into 
our budget request, sir, that we make to you all.
    Mr. Gejdenson. Would the State Department forward that 
additional request?
    Ms. Ryan. Yes, we have. We have also, as I mentioned to the 
Chairman, we are moving the custody part of the Passport Office 
to Children's Issues so that we will be better able to prevent 
the kind of tragedy that happened to Mr. Lebeau.
    Mr. Gejdenson. Should Mr. Rossman give you some more of his 
staff, since he's got people who are expert in this and 
probably got a large budget with too much money and doesn't 
know what to do with it?
    Ms. Ryan. I'm not sure----
    Mr. Gejdenson. But I mean, is one of the solutions here to 
take some of your people who already deal with these kinds of 
issues and lend them to the State Department, can you do that?
    Mr. Rossman. Are you addressing the question to me?
    Mr. Gejdenson. Yes.
    Mr. Rossman. I believe that we have needs at the Department 
of Justice in this important area that are also critical and we 
have our Office of Child----
    Mr. Gejdenson. You're focusing on intrastate--interstate.
    Mr. Rossman. No. In this particular area we are focusing on 
international parental kidnapping. The criminal side----
    Mr. Gejdenson. Just international. Do you have different 
people working international and interstate at Justice?
    Mr. Rossman. We are concentrating, Congressman, in this 
important area, on the international side, and we concentrate 
on the criminal statute. We concentrate on supplementing and 
assisting the State prosecutors and local prosecutors who bring 
prosecutions under their local laws, through our Office of 
International Affairs. We have a big job as well, and we devote 
our resources in that area.
    I think the one thing that you should be pleased with is 
that the cooperation between the Department of State and the 
Department of Justice in this important area is very strong, 
particularly since the Attorney General created the policy 
group on which I sit. We have met at least monthly and, over 
the last year, have gotten to know each other. I think there 
was a good working relationship between our working staffs 
before that. But I think now, particularly at the policy level, 
we're getting to know each other, work with each other, and 
understand our mutual problems.
    I think that is how we can best assist State with their 
needs, and they assist us with ours.
    Mr. Gejdenson. The argument that I would make, and I guess 
others would make, is that if you detailed some of your staff 
to State, it would almost institutionalize, you know, that kind 
of situation where people knew each other and worked with each 
other and there was better cooperation.
    Let me ask another question before my time runs out. In 
your testimony, Mr. Rossman, you pointed out that the 
International Parental Kidnapping Crime Act doesn't necessarily 
result in the return of the children, it's only prosecuting the 
abducting parent. Is there something we can do in that law that 
would make it easier to get the kids back? Or is that really--
--
    Mr. Rossman. I really don't think there is, Congressman. 
It's unfortunate, but the criminal law has not historically 
been used in a coercive fashion, but in a punitive fashion, so 
that we have--and I think the Amer case that I referred to in 
my opening remarks, the tragic case. There are at least two 
cases, and a third one brewing like Amer now--where we fully 
used the criminal process.
    We prosecute, convict, sentence, and incarcerate the 
offender, but the children remain abroad. We are powerless, 
particularly in those cases of non-Hague countries where we 
won't be able to extradite nationals back here. We are at a 
loss to get the children back, although we've done everything 
we can do under the criminal law to prosecute the offending 
abductor.
    Mr. Gejdenson. I want to thank both of you. I know it's a 
tough place. Again, I'd say that Congress doesn't give you--
either of you--the resources to do the job. If you look at the 
International Affairs budget, if you look at constant dollars, 
in 1985, we were somewhere around $35 billion, and today we're 
somewhere below $20 billion, I think. In reality, we haven't 
even been able to pass that.
    These aren't just numbers. I mean, the problem that 
happens--and in the press there's often this great story about 
one side wants one number and the other side wants another 
number--but what it really comes down to is having the 
personnel to follow up on these cases, to have monitoring 
systems, to have passport controls in place to make sure that 
we don't lose children who ought not be taken out of the 
country.
    Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. The title of a recent 
Reader's Digest article on the issue that's before this 
Committee today is, ``America's Stolen Children: Why Has 
Washington Turned Its Back on Thousands of Abducted Kids?''
    [The information referred to appears in the appendix.]
    Mr. Chabot. I guess that's why I want to ask our witnesses 
today, has Washington turned its back on these children? Has 
Washington turned its back on the beleaguered parents of these 
children? Has our Federal Government been complicit in the 
circumstances that have led to the terrible ordeals endured by 
many of these families?
    Let me ask our Justice Department witness, Mr. Rossman, a 
couple of questions, if I may. Mr. Rossman, as I mentioned in 
my opening remarks, I'm most familiar with the case of Mr. Tom 
Sylvester, who is from Cincinnati, who will testify before this 
Committee later on in this hearing. As you know, Mr. 
Sylvester's daughter, Carina, was abducted in October 1995, so 
almost 4 years ago, by Mr. Sylvester's former spouse, and taken 
to Austria. Mr. Sylvester had previously been awarded custody 
of his daughter in the United States, and that order was later 
reaffirmed by Austria's highest court.
    I'm very troubled about what has transpired since that 
time. In my view, it is the obligation of the Federal 
Government to protect its citizens, in this case, both Tom 
Sylvester and his child. Yet, when Mr. Sylvester filed Federal 
criminal charges under the International Parental Kidnapping 
statute I'm told that the Justice Department did not issue an 
extradition request to the Austrian government. Mr. Sylvester 
did not learn of this inaction by his government for more than 
two long years. That was two long years without seeing his 
little girl.
    When our Senior Senator from Ohio, Mike DeWine, wrote to 
Attorney General Janet Reno about this lack of effort by the 
Justice Department, he waited 5 months for a reply, and then 
that reply, from our Justice Department, was not responsive. 
Does the Justice Department take this issue seriously? Is it a 
priority? Or do you consider it a time-consuming nuisance?
    Because I can assure you that many of the Members of 
Congress take the matter of international child abduction very 
seriously, as I clearly do and does Rob Portman, whose district 
Mr. Sylvester actually resides in. As a Member of not only this 
Committee, but also the Judiciary Committee, which has lead 
oversight responsibility for the Justice Department, I can 
assure you that I'm going to be paying very close attention as 
we continue to try to bring these American children back home.
    Now, before I ask Ambassador Ryan a question, and then let 
you both respond, I do want to acknowledge some of the good 
work that both of your departments have done. We've had another 
case, not very long ago, where a child from my district was 
abducted by a parent and taken to Germany. Both the FBI and the 
State Department worked closely with our office and the child 
was returned to Cincinnati within a matter of days, with very 
little assistance from the German government, I might add. 
That's why, knowing of your capabilities, I'm so frustrated by 
the Sylvester case.
    Ambassador Ryan, I'm terribly troubled with the fact that 
diplomatic courtesies seem to stand in the way of resolution of 
some of these cases. The United States, among signatories to 
The Hague Convention, has an excellent record in returning 
abducted children to the other countries. Other signatories, 
including Austria, have terrible records. I'm concerned that 
our government, in its efforts to maintain good diplomatic 
relations abroad, is doing so too often at the expense of these 
abducted children.
    Frankly, I'm not a diplomat. I'm not the least bit 
concerned about ruffling the feathers of the Austrian 
government or any other government that's stonewalling our 
efforts to bring abducted American children back home.
    Ambassador, can you assure me that the State Department is 
not, and will not let diplomatic niceties stand in the way of 
getting these abducted American children back home? Or does 
Congress need to take legislative action that will encourage 
countries to honor their obligations under The Hague 
Convention?
    Then just one final thing: In this article that I referred 
to before, they talk about Mexico as an example where in 3 
percent of the cases that make their way through their courts 
they do return the children home. By comparison, the United 
States issues orders 80 percent of the time. So it seems like 
the United States is complying, but many other countries around 
the world--and the one I'm focused on most specifically is 
Australia or, excuse me, Austria--are not complying. If you 
could----
    Ms. Ryan. Thank you, sir. Yes, let me just go back to your 
original question on that Reader's Digest article and the 
title, ``America's Stolen Children,'' and that the State 
Department or the government was turning its back on those 
children, and on their parents. I think that article was really 
horribly misleading and, in some parts, I think, even 
untruthful, and really very damaging to parents caught up in 
this sort of tragedy where they have enough sorrow and concern 
without being told by a magazine like the Reader's Digest, 
which does have wide readership, that the government was 
turning its back on them.
    We don't turn our backs on them, but sometimes, despite our 
very best efforts, we are not able to get the children back. 
That does not mean that we don't try to get those children 
returned, or that we don't make representations to the foreign 
governments.
    In the case of Austria, and in the case of Mr. Sylvester's 
child, we have found Austria to be noncompliant with The Hague 
Convention and that should demonstrate, I think, that we don't 
deal in diplomatic niceties when there are children concerned. 
We have found the country of Austria to be noncompliant. The 
Austrians are upset by that decision of ours, and have told us 
that in no uncertain terms.
    We think that the Sylvester case is a perversion of The 
Hague Convention, and we continue to try to work with Austria 
to lead them to understand what their responsibilities are 
under The Hague Convention in the case of this particular 
child. The fact that we have not succeeded doesn't mean that we 
haven't tried. I think it's important that you, sir, and that 
this Committee understand that, while we are not always 
successful, we always do try.
    In the case of Mexico--I was in Mexico last month--I spoke 
to the Under Secretary for Foreign Affairs about Mexico's 
woeful record in returning children and learned from him that 
they have only three people devoted to this particular issue. 
We are encouraging them to identify additional people. Mexico 
is a large country. What they claim is that they can't find the 
children, but if you have only three people looking, obviously 
you're not going to find the children. So we are in a dialogue 
with them again. We have proposed, and they have agreed to meet 
on this.
    The Office of Children's Issues is going to have a 
conference next year with common law countries who are 
signatories to The Hague to try to explore some of these issues 
of non return of the children when the parent, as in the case 
of Mr. Sylvester, has done everything right. I hope that 
something comes of that.
    But we're not shy about telling them that we're unhappy 
with the countries involved at all. There's no diplomatic 
niceties. We do consular work, Mr. Congressman. I don't have to 
worry about diplomatic niceties.
    Mr. Chabot. Mr. Chairman, could I ask unanimous consent for 
1 additional minute so Mr. Rossman can answer?
    Mr. Rossman. Please.
    Mr. Campbell. [presiding] Without objection.
    Mr. Chabot. Thank you.
    Mr. Rossman.
    Mr. Rossman. Thank you. Congressman Chabot, let me assure 
you that the Department of Justice takes this matter very 
seriously. The Attorney General and the Assistant Attorney 
General in charge of the Criminal Division have both personally 
asked me, as the Chief of Staff for the Criminal Division, to 
be involved in this project. As I said in my opening comments, 
I've been involved for a year now on the policy group. I've 
been having monthly meetings and have put scores and scores of 
hours into this particular area of tragic problems.
    I am familiar with the Sylvester case and my heart goes out 
to Mr. Sylvester. Every time I review this case, every time I 
look at the facts of the case, I can't imagine how terrible it 
must be for him. But there are some circumstances on the 
criminal law side that are so complicated they are beyond our 
ability to really do anything about it. There is a warrant that 
continues to be outstanding from the eastern district of 
Michigan--my home district, I might add. That warrant does ask 
for her return for the Federal kidnapping statute. However, 
Austria bars extradition of its nationals. It's one of several 
countries that do so, and there isn't much that we can do about 
that process.
    The Attorney General, however, does go around the world 
dealing with her colleagues around the world, preaching that we 
should really change extradition laws so that other countries 
will permit the extradition of nationals. We've had some 
limited success in that regard in convincing countries, mostly 
in this hemisphere, to change their laws. Unfortunately, a lot 
of European countries continue to refuse to extradite their 
nationals.
    Then the next thing we do is we go to the country in 
question and we try to see if they would prosecute that person 
domestically for the actions for which they won't extradite 
their nationals. But in the case of Austria, Austria does not 
make a criminal offense the activities that occurred here, 
because at the time, as I understand it, Mr. and Mrs. 
Sylvester, at that time, were together; they shared custody.
    They shared custody at the time that Mrs. Sylvester fled to 
Austria and that does not constitute, as I understand it, a 
crime under Austrian law, although it is a crime under IPKCA. 
Our law is much broader and, I think, much more effective than 
Austrian law. So, because Austria does not recognize it as a 
crime, they would not prosecute her domestically.
    Also, when the State Department recently made the inquiry 
under the list treaties as to whether the change in law made by 
Congress a year ago would give us a definition of kidnapping 
which would, if you didn't have a nationals problem, permit an 
extradition, State was told by Austria that they would not 
consider that an extraditable offense.
    So we believe we've run out of options in Austria, but a 
red notice does stay on record through Interpol, and the FBI 
does continue its investigation. If Ms. Sylvester steps foot 
out of Austria into a country in which there is an extradition 
possibility, we intend to vigorously pursue that and try to see 
if we can solve Mr. Sylvester's tragic problem.
    Mr. Chabot. Thank you. I'd ask that you give this 
particular case the utmost attention, because this has to be an 
absolute nightmare that he's going through.
    Mr. Rossman. I can assure you we will.
    Mr. Chabot. Thank you. Thank you, Mr. Chairman.
    Mr. Campbell. Thank you, Mr. Chabot, for your obvious 
conscientious interest in the issue. The Chairman had to step 
out for a meeting. He will join us again shortly. At this time, 
it's my privilege to recognize the distinguished gentleman from 
Florida, the Honorable Alcee Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. I 
appreciate it very much, and I appreciate very much your 
statements Ms. Ryan and Mr. Rossman.
    Let me approach this from a more positive point of view and 
thank the two of you, and the parents that are here, and Lady 
Meyer and other witnesses, for the extraordinary work that you 
do in a highly complex, traumatic, frightening, rather complex 
set of situations dealing with the issue that we are 
addressing.
    Lest anyone in this room think that anybody has turned 
their back on their children, if anyone has--and I address 
specifically the parents--then Congress has, for a significant 
number of years, by asking the people who are appearing here as 
our immediate witnesses to continue to do more with less. Over 
a period of time, as has been aptly pointed out by the Ranking 
Member, Mr. Gejdenson, we've had the 150 account, where the 
Office of Children's Issues gets its funding decrease over a 
period from 1985 to date by as much as 40 percent. So I think 
you all do a great job.
    I don't come to this without some experience. I spent 3 
years as a juvenile judge, and I spent 9\1/2\ years as a 
Federal judge. While every day these issues were not before me, 
they were before me and my colleagues at least regularly enough 
for us to recognize them as a more than significant problem.
    So that we don't get too bogged down--and not to suggest 
that we should not do everything we can on the international 
front--it's complex enough with parental custody inside the 
United States; inside a state, inside a city in a state, we 
have difficulty. Some of that is a lack of training of the 
people who sit in judicial responsibility, and sometimes it's 
bureaucratic bungling that takes place.
    But, without casting aspersions, the fact of the matter is 
people are doing the best that they can, and I, for one, thank 
you all for your efforts. I recognize anecdotal information 
that has been provided as such, that would cause all of us to 
shudder if it were happening to us.
    I guess what I would want to know mostly is, being as 
impressed as I am with the policy and working groups that you 
all have put together, is, explain if you will to all of us 
what mechanisms are you using today to strengthen the area of 
preventing the departure of abducted children, recognizing when 
I say that, that a parent who clandestinely puts their child on 
a speed boat and goes out of the country didn't go through any 
Customs. But what are we doing? And, an addenda to that, what 
are we doing to address the countries who refuse or act in an 
intransigent manner to extradite children? Those would be my 
only two questions, Mr. Chairman. Thank you both.
    Ms. Ryan. Thank you, Congressman. One of the things that we 
are trying to do to strengthen the prevention of removal of 
children is to, as I mentioned earlier, to move the part of 
Passports that deals with custody issues into the Office of 
Children's Issues, where we hope that we will be able to pay 
much more attention to that particular issue and perhaps stop 
one parent from taking a child improperly abroad. I would point 
out, though, that many of the children who are taken abroad are 
nationals of the other country as well, and frequently travel 
on that country's passport. So we don't always know that the 
child is being taken abroad.
    I'm trying to get additional staff for the Office of 
Children's Issues, which they desperately need. I thank you for 
your remarks earlier, Sir, about the work that we are doing. I 
really wish to point out to all of you here today that the 
staff of Children's Issues is there because they are very 
interested in children. They are not just assigned there. They 
choose to go there. The fact that they have such a crushing 
workload is unfair to them, and unfair to the job that they are 
doing, and that they want to do. So we're trying to get 
additional staff for that office.
    I think that perhaps Mr. Rossman has other measures that 
Justice is doing to try to prevent children from being taken 
abroad, but that's what we are doing, Sir.
    Mr. Rossman. First, we don't have processes to check people 
exiting the borders, as we do when they are incoming. But one 
thing that can happen--I know you often hear that international 
red notices take several months to obtain one through Lyon, 
France, and that's true--but it is possible, through our 
Interpol National Central Bureau here in Washington, to issue 
an immediate diffusion, either worldwide or targeted at a 
specific region, which can provide identifying information 
about a fugitive, leads on his or her possible location, and 
assurances that we will seek a fugitive's arrest and 
extradition if he or she is located.
    So certainly the message should be--and we're trying to 
spread this message to not only Federal agencies, because we're 
involved in a lot of training in this area, but also state and 
local agencies--that we need to have parents, when this 
happens, get to the authorities quickly so that we can get it 
into the system and begin to try to prevent these actions.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Mr. Campbell. Thank you, Mr. Hastings, and for your obvious 
interest and concern in the issue. The gentleman from Texas, 
Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. When I was growing up, 
whenever my mom would turn to me and start with the words, 
``This is going to hurt me more than it's going to hurt you,'' 
I never really believed her. When I say the next comments I'm 
making are going to pain me as much as it pains you, you 
probably won't believe it either. But the fact of the matter is 
that we do need to point out some issues that need to be 
addressed in the state of our efforts today in America, and in 
how we can work together in Congress. Because it is our 
responsibility, and not just the State Department, the Justice 
Department, and the Congress. We are all in this thing 
together.
    Both State and Justice, on the issues of child abduction, 
have a reputation of being disrespectful to parents who turn to 
you for help: for having a cavalier attitude toward them, for 
having poor communications with parents; lack of coordination 
between each other; and a very weak case tracking system. There 
seems to be poor enforcement of The Hague Treaty and a weak 
enforcement of our International Parental Kidnapping Crime Act, 
which has resulted, as I understand, in only 15 convictions 
since 1993.
    It seems to me, in real life, international agreements are 
meaningless unless they're enforced aggressively by us. At 
times, especially when you're dealing with children, that 
enforcement, that timeliness, is absolutely critical, because 
one year, two years, or three years is a lifetime for a parent 
or for a child. At times I know you're trying, but at times it 
doesn't appear we are trying hard enough.
    For example, it was reported recently that the State 
Department closed 900 cases of child abduction in the last 2 
years, but that the State Department considers a case closed 
when a foreign government merely denies a return request. So 
when there's a problem, we ask for a return; the government 
says no; and we close the case. I'm hoping you'll tell me 
that's not the situation.
    It seems to me, too, that, while primarily abduction is a 
civil effort, in real life that means those who are rich and 
have means have a chance, and those of more modest means or 
little who have to turn to you for help can't get it. It seems 
to me that it's one of our primary roles to stand up for the 
rights of American citizens who can't stand up for themselves.
    On the issue of resources, GAO says, according to the 
report, that there's no doubt that both departments need 
additional resources, but that it is difficult to find out what 
those funding levels are, what the strategy is, how they will 
be used, and what the results are expected to be. It seems to 
me that, from a congressional standpoint, pouring more money 
into a leaky bucket doesn't get us where we need to go. For us 
to do our part, you need to do your part; to give us better 
information; to have a stronger strategy. But sit down and 
identify specific actions that need to be taken with specific 
resources, because, without that, without your help, we can't 
help.
    I'll come back to my opening statement, which is we all 
bear responsibility, together, on this issue. We are not doing 
a good job. Some of these problems mirror exactly what states 
like Texas are doing; the problems we've had on our child 
abuse-type cases; almost identical type complaints and 
problems. I'm just not convinced that we can't do much better 
than we're doing today, if we will, together, get deadly 
serious about improving this.
    With that, I'll just open to comments or correction, if you 
would.
    Ms. Ryan. Congressman, I think that we are deadly serious, 
both State and Justice, on this issue of abducted children. I 
recognize that if a child has not been returned, the parent 
often thinks that his or her government has done nothing, 
because the child is not back in their arms, and I understand 
that. But I am telling you that that is not an accurate 
understanding of what the government has done.
    We fail if we can't return the child or if we can't get the 
child back for the parents, but that does not mean that we 
don't work very hard on all of those cases. We don't close 
cases. If there's no recourse under The Hague, we keep the case 
open in efforts to identify other ways that we might be able to 
get the child, or new arguments that we can use with The Hague 
countries to which the child has been abducted.
    I'm distressed, I guess, by your characterization of us as 
a leaky boat, because we are doing our utmost, and we do need 
additional staff, and we do need additional money to do the 
kinds of things that we all want to do, that you want us to do 
and that we ourselves want to do. Frankly, Sir, I yield to no 
one in my concern for the people who are caught up in this kind 
of tragedy.
    Mr. Brady. Madam Ambassador, I'm not questioning your 
intent or conviction. Obviously, your life's work proves that 
out. But actions speak louder than words and intent, and, 
clearly, we are failing in this effort. The numbers prove it 
out. The parents prove it out. Unless we are willing to 
acknowledge we are not doing the job that is our 
responsibility--Congress is not doing its job as well in this, 
by the way. You just need to understand that--unless we 
acknowledge that and have specific plans, together, we aren't 
going to make progress in this area. I know you're not telling 
me we're anywhere close to doing the job we should be doing for 
our citizens.
    Ms. Ryan. We're not doing the job the way I would like to 
have it done, the way I would like to be able to do it, but 
that, Sir, is not a lack of will or a lack of intent. That is a 
lack of resources and that is, frankly, as the Ranking Member 
said in his opening statement, the increase in number of these 
kinds of marriages which result in children who are often dual 
nationals, and one parent taking the child back to his or her, 
often, his or her own home country, where the child is also a 
citizen. This phenomenon is a recent one and one of the reasons 
why we have the Office of Children's Issues, why it was created 
in the last six years, and why we are trying to staff it 
properly so that we can work more effectively with the parents.
    We are exploring, with the National Center for Missing and 
Exploited Children, ways in which we can give the parents the 
kind of emotional support, the kind of counseling, that kind of 
support, which indeed we are failing at doing. Because we've 
never done it before, we've never had to do it before. We are 
learning how to do it, with the parents' help, as they tell us 
what more they need.
    Mr. Brady. Clearly, this is an emotional issue. At times, 
it gets difficult to stay logical and reasonable because you 
are dealing with children who belong back with the parents, and 
for those who don't have the resources, mainly, we're the only 
hope for them. So whatever we can do. Again, I don't question 
your commitment or the staff that you've put together, or the 
initiatives that you are beginning and working on. All I'm 
saying is that we have a long way to go. We want to provide 
those resources to help you in this. Thank you, Mr. Chairman.
    Ms. Ryan. Thank you.
    Chairman Gilman. [presiding] Thank you, Mr. Brady. Mr. 
Campbell.
    Mr. Campbell. Thank you, Mr. Chairman. Mr. Rossman, you've 
suggested that, with regard to the Sylvester case, Mrs. 
Sylvester--it may be not her name any more, but the mother--had 
gone to Austria, but that there was an Interpol possibility, 
should she travel. I think your word was ``should she set foot 
outside of Austria.'' But Austria's in the EU, so if she 
travels to any member of the EU, she's not going to need a 
passport. Am I correct?
    Mr. Rossman. That is correct, Congressman Campbell, and 
that is a problem.
    Mr. Campbell. Understood. Not your problem, I just wanted 
to clarify.
    Mr. Rossman. Yes. Easy access throughout the EU by citizens 
of the EU are complications. Yes, you are right, there.
    Mr. Campbell. I'm going to ask specific and short 
questions, so I appreciate it. Again, it's no criticism; it's 
just you really can't count on it if it's not there.
    The National Center for Missing and Exploited Children 
apparently has offered to help, particularly in those questions 
of children taken outside of the United States. I've been told, 
however--so I want to check it with you, Ambassador Ryan, or 
maybe with Mr. Rossman. Whoever can speak to the question--that 
we have not been willing to allow a broader role for the 
National Center for Missing and Exploited Children with regard 
to assisting in those cases of children leaving the United 
States. Is that correct or is that----
    Ms. Ryan. No. That's not--that's certainly not my 
understanding.
    Mr. Campbell. Fine. Tell me what is correct.
    Ms. Ryan. Or certainly what I want. We are exploring with 
them how they might expand their role and how we might work 
more closely together on the cases of children abducted abroad. 
They do a really phenomenal job when, say, a child is taken to 
the United States illegally or improperly. We have an agreement 
with them and we are working with them on ways that they might 
help us better overseas. So, as far as I know, we have a very 
good and collegial relationship with them.
    Mr. Campbell. Fine. I'm going to give you a chance to 
respond to that. It may be that we'll hear more on that later. 
But if your view is they're good and productive colleagues, 
then, perhaps, we----
    Ms. Ryan. It's certainly my view, Sir, yes.
    Mr. Campbell. I'm pleased to hear it. Two last questions on 
the Secretary's report. Again, more to Ambassador Ryan but, Mr. 
Rossman, feel free to jump in if you'd like. I understand that 
the Secretary, in identifying closed cases, determined, as in 
the language of the report--which I'm going to tell you, in a 
rare moment of candor, I have not read, so I'm not going to 
pretend that I've read it, and you have. So please correct me 
if it's wrong. But I understand that she defined ``closed 
cases'' as cases that ought to be resolved. That is not 
necessarily the same thing as a case that the parent thinks is 
not yet resolved.
    Incidentally, we have that same issue in another rather 
very important field on missing in action, where the family may 
not agree with the Secretary, in this case, the Attorney 
General.
    So could you speak to that question. Is the Attorney 
General using a definition of a resolved case that is without 
criteria?
    Ms. Ryan. I think it's a question of semantics, Sir. If I 
really understand it right. If we have no further recourse or 
what we understand, if we've tried everything that we possibly 
can, as has the parent, to get his or her child back through 
The Hague Convention, and there seems to be no further recourse 
under The Hague, then that case may be considered closed, but 
we still keep it open.
    Mr. Campbell. In which case--pardon me for interrupting, 
but an easy suggestion to you might be that you so report. All 
right?
    Ms. Ryan. Yes. I agree with that.
    Mr. Campbell. Because otherwise it looks----
    Ms. Ryan. It looks awful. Yes.
    Mr. Campbell. Right. If you could pass that along to the 
Attorney General. It's a small suggestion, but I'm sure she 
wants to do what's most----
    Mr. Rossman. I think you mean the Secretary of State.
    Mr. Campbell. I apologize. Quite. Of course, if you want, 
pass it along to the Attorney General, that might be----
    Mr. Rossman. I assure you, Congressman, on criminal 
matters, they remain open, even when we have situations such as 
the Sylvester case where they're in Austria, and we can't 
extradite out of Austria.
    Mr. Campbell. Sure. Great. I take your correction. Thank 
you, Mr. Rossman. So my polite suggestion to the Secretary of 
State.
    Ms. Ryan. Yes, Sir. I understand.
    Mr. Campbell. A column that says, ``Not yet solved, but we 
can't do anything more.''
    Ms. Ryan. Yes.
    Mr. Campbell. Separate from ``Still trying.''
    Ms. Ryan. ``Closed,'' yes, I agree with you.
    Mr. Campbell. Great. Last, I understand--once more, correct 
me if I'm wrong--that the report does not identify the 
countries as to which we still have the outstanding cases, so 
that would be really important for us to know, because if it's 
one country or two, more than others, that's our business in 
the International Relations Committee.
    Ms. Ryan. Absolutely. One of the problems that we had when 
we were doing this report was that, apparently, we were 
providing too much information under the Privacy Act, and our 
legal advisors told us that we had to be more general. I am 
happy to make available to the Committee any information that 
you want on any country, on any case. We were just not able to 
give you--we had the report already done and we were told that 
we couldn't send it the way it was done. So, that's----
    Mr. Campbell. Here's a suggestion--and I bear in mind your 
limited resources, so it's not as though I'm now going to 
request the Chairman to make this a formal request. I will not 
do that. I'm not--but my thought would be, in helping me do my 
job, if you might at some point--because I take it you prepare 
this report--give some sense of which countries are helping out 
more than others.
    Ms. Ryan. Certainly, Sir.
    Mr. Campbell. Then I don't think you've violated anybody's 
privacy, but that helps us. Because we might be dealing with 
Austria on another matter, and I could raise that when I'm 
visiting with some of their diplomats.
    Ms. Ryan. Yes.
    Mr. Campbell. So, if I have kind of an assurance from you--
--
    Ms. Ryan. You do, Sir.
    Mr. Campbell. That's very kind of you. If I have your 
assurance that you'll provide me that information.
    Ms. Ryan. I will give you that information. Yes.
    Outgoing Cases Unresolved After 18 Months:
    Australia.............................1
    Austria...............................0
    Bahamas...............................1
    Canada................................0
    Chile.................................2
    Colombia..............................2
    Ecuador...............................2
    France................................1
    Germany...............................2
    Israel................................4
    Mexico................................34
    Panama................................0
    Poland................................1
    Spain.................................4
    Sweden................................1
    Switzerland...........................1
    Mr. Campbell. Thank you. My name's Campbell, from 
California. I'm easy to find.
    Ms. Ryan. Thank you.
    Mr. Campbell. Thank you both. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Campbell.
    Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. I 
apologize for coming in a little late. As you know, there's 
always so many issues that we're trying to deal with here and, 
unfortunately, sometimes they occur at the same time. It really 
doesn't diminish the focus that we have on this issue. But, as 
Chairman of the Western Hemisphere Subcommittee, we had a very 
important meeting with the Vice President and the Foreign 
Minister of Panama, concurrently. So that's the reason I wasn't 
in here promptly when the meeting started.
    Mr. Gallegly. In the interest of time, and so we could move 
on, I would yield back.
    Chairman Gilman. Thank you, Mr. Gallegly.
    I want to thank our panelists. Is there any other question? 
No further questions? I thank Assistant Secretary Ryan and Mr. 
Rossman for being here, and for your patience and time. There 
may be some other questions which we'll submit to you and 
request a written response.
    Ms. Ryan. Yes. Thank you, Mr. Chairman, and thank you, 
Members of the Committee for your interest in this very tragic 
situation.
    Chairman Gilman. Thank you.
    Mr. Rossman. I thank you, too, Mr. Chairman.
    Chairman Gilman. We'll welcome your continued efforts on 
behalf of the parents.
    I'd now like to introduce our Panel second panel. Mr. Jess 
Ford, Associate Director for International Relations and Trade, 
of the General Accounting Office. Mr. Ford has worked with GAO 
since 1973. Mr. Ford has extensive experience in managing 
audits of the State Department and the Agency for International 
Development.
    Earlier this year, we requested GAO to do a thorough review 
of the services provided by our government to parents of 
internationally abducted or wrongfully retained children. The 
final report of the GAO, pursuant to this request, has not yet 
been released, but Mr. Ford has agreed to appear today in order 
to provide some preliminary findings and recommendations.
    We appreciate your testimony, Mr. Ford. You are free to 
summarize your statement. Without objection, it will be 
included in its entirety in the record of this hearing.
    Please proceed, Mr. Ford.

 STATEMENT OF JESS FORD, ASSOCIATE DIRECTOR, NATIONAL SECURITY 
  AND INTERNATIONAL AFFAIRS DIVISION, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Mr. Ford. Thank you, Mr. Chairman. Before I begin, I would 
like to introduce Mr. Boris Kachura. He's an Assistant Director 
who is responsible for this particular project that we've 
undertaken for the Committee.
    I'm pleased to be here today to discuss our preliminary 
observations on the Federal Government's response to 
international parental child abduction. The State Department 
estimates that about 1,000 children annually are abducted from 
the United States by one of their parents.
    When these cases are reported to authorities, the State 
Department and the Justice Department assume various roles in 
locating abducted children, reporting on their welfare, 
intervening diplomatically to secure their return, and bringing 
abductors to justice. However, left-behind parents, and others, 
have raised a number of concerns about the Federal response to 
these child abductions.
    Because of your concerns, you asked us to examine problems 
with the Federal Government's response to parental child 
abduction, and to examine how the Federal Government is 
attempting to improve its response. Today I will discuss 
several problem areas which have been identified, and what 
actions the Federal Government plans to take to address them. 
We plan to complete our work and provide this Committee with a 
report later this year.
    There are a number of problems and issues related to the 
Federal response on international child abductions. These have 
been identified by the Departments of State and Justice, the 
National Center for Missing and Exploited Children, as well as 
left-behind parents, and others. Together, they present 
obstacles to left-behind parents, in their attempts to locate, 
gain access to, and obtain the return of their children.
    There are four particular problems that I would like to 
discuss this morning. First, there are gaps in Federal services 
to left-behind parents which make it difficult for them to 
recover their abducted children. The gaps that we have 
identified include: a lack of a focal point within the Federal 
Government to obtain Federal assistance; the lack of financial 
and counseling services to parents; and the lack of frequent-
contact for left-behind parents on the status of their cases.
    Second, weaknesses within the existing Federal case 
tracking process, which can impair case and program management 
and coordination. The State Department, Justice, and the 
National Center each have their own data bases which are now 
not currently integrated, and they use different criteria for 
categorizing cases, actions, and results. In addition, the 
incidence of abduction cases, actions taken, and the overall 
disposition of cases is not readily available and hampers the 
State Department's ability to determine how to best allocate 
its resources.
    Third, there's a lack of systematic and aggressive 
diplomatic effort to improve the international responses to 
parental child abduction. This includes identifying countries 
that have not fully complied with their responsibilities under 
The Hague Convention to return, or to provide access to, 
abducted children.
    Finally, Mr. Chairman, I'd like to briefly comment that you 
asked us to look at the status of the use of the International 
Parental Kidnapping Crime Act of 1993. Basically, we have found 
that it has had limited use on the part of the Justice 
Department.
    The State and Justice Departments have developed 
recommendations which they believe will address many of the 
problems if they are implemented. We found that some actions 
have been taken to implement these recommendations, but many 
await further action and resource commitments. For example, the 
State Department has added additional staff to reduce case 
loads and to provide more frequent contact to parents. State is 
also designing an integrated case tracking system and it is now 
working with the National Center to expand their involvement in 
outgoing cases.
    However, several other recommendations related to expanding 
diplomatic initiatives to improve the implementation of The 
Hague Convention, providing financial assistance and counseling 
service to parents, and fully implementing a comprehensive case 
tracking system, await further actions. In addition, some of 
the recommended actions are not expected to be implemented for 
another year or longer.
    In sum, both the State and Justice Departments have taken 
positive steps to clarify and describe how they will respond to 
the problems identified in dealing with international parental 
abductions. However, without resource commitments, it is 
uncertain whether they will be able to take additional steps to 
correct many of these problems. Both State and Justice agree 
that they need to identify these resource commitments. We 
expect that, as these recommendations are implemented, a 
clearer perspective on their efficacy will emerge.
    Mr. Chairman, that concludes my summary statement. I'd be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Ford appears in the 
appendix.]
    Chairman Gilman. Thank you very much, Mr. Ford. What 
actions are under consideration to improve services to the 
parents?
    Mr. Ford. Some of the services to help parents have already 
occurred. This includes the additional hiring of staff by the 
Department of State to reduce the case load burden on the part 
of individual employees. We think that this will have a 
positive impact in terms of providing more frequent response to 
parents on the status of their cases. That's been a complaint 
that's been raised in the past.
    Chairman Gilman. Are they under consideration now to 
provide that additional resource?
    Mr. Ford. As you have heard from the previous witnesses, 
the State Department has requested 13 additional staff for the 
Office of Children's Issues. They have indicated to us that 
most of those staff will, in fact, be involved in these types 
of cases, and that they hope to reduce their overall case load 
burden by more than a half of what it was at the beginning of 
last year.
    Chairman Gilman. So the additional staff will be provided?
    Mr. Ford. They've requested the additional staff. I can't 
comment on whether the final decision as to whether they will 
be provided or not has been made.
    Chairman Gilman. That's something we'll have to keep under 
review.
    What do you view as the most serious issues with the 
implementation of The Hague Convention?
    Mr. Ford. Mr. Chairman, I think that the major issues--and 
some of them you've already heard from the previous witnesses--
really have to do with the implementation on the part of some 
of the signatories to The Hague Convention. As the State 
Department mentioned earlier, some of the foreign countries 
have not complied with the general terms of The Hague 
Convention. The report that they issued to the Congress in May 
outlined, in particular, I believe it was five countries that 
they found to be, in general, noncompliance.
    There are a number of other issues that were also mentioned 
earlier that I think are related to this. That has to do with 
the lack of enforceability of return orders on the part of some 
of The Hague countries, the lack of enforceability to access 
for left-behind parents to children, and, in some cases, the 
lack of cooperation in helping locate these children.
    Chairman Gilman. Mr. Ford, how effective has the 1993 
International Parental Kidnapping Crime Act been in having 
children returned?
    Mr. Ford. Mr. Chairman, it is very difficult to determine 
the effectiveness of that particular piece of legislation. As 
you heard the earlier witnesses testify, the Justice Department 
has not used the criminal statute very frequently. In fact, in 
the last five years, they have indicted approximately 62 
individuals and, I believe, they had 13 convictions for that 
five-year timeframe. We understand they currently have 39 
ongoing cases.
    As Mr. Rossman testified earlier, there are several reasons 
why the Justice Department has not increased the use of that 
particular statute. First, Justice cited a preference to first 
pursue the civil options under The Hague Convention. Second, to 
rely on the states, the individual states, and assisting them 
in their efforts to go after the abductor. Third, they 
identified problems related to extradition in getting countries 
to return the abductors. All of those issues combined have 
contributed to a limited use of the statute. But, at this time, 
we're not able to determine whether or not the statute is 
effective or not.
    Chairman Gilman. Mr. Ford, what benefits would an 
integrated case tracking system have, and what might impede the 
development of that kind of a system?
    Mr. Ford. From our work, we think there are several 
potential benefits. One is just identifying the nature of the 
problem so that you can better determine the use of resources. 
The State Department currently maintains a data base on their 
cases, but we have found that the information in the data base 
often tended to be inaccurate, that it wasn't well-coordinated 
with the data bases of the other Federal agencies.
    We think that if they follow through with the current 
action plan that they have in this area, that they can do a 
much better job of identifying the nature of the problem, do a 
much better job of diagnosing what needs to be done to better 
assist parents, and also to better support diplomatic actions 
against The Hague countries that don't comply. So we think 
that, if they follow through with this, it will be very 
beneficial.
    Now, the issue we raised in our statement had to do with 
the resourcing requirements associated with this. At this point 
in time, it's not clear to us whether or not the State 
Department will make those resources available.
    Chairman Gilman. Thank you, Mr. Ford. I have to step out a 
moment. I'm going to ask Mr. Brady if he would chair 
momentarily.
    Mr. Brady. [presiding] Thank you, Mr. Chairman. Congressman 
Nick Lampson of Texas has joined us. Representative Lampson has 
been deeply involved in the issue of child abduction, 
domestically and internationally. We're pleased to have him 
join us today and would invite any comments.
    Mr. Lampson. Thank you, Mr. Brady. It's a pleasure to be 
here. It's a pleasure to listen. I wish I had been here for 
more of the presentation of the other panelists. In the last 
several minutes that I've been listening, I heard Mr. Ford make 
a comment that there has been an increase of some 17 personnel 
for the State Department who are being able to better handle 
the case load that exists.
    My interest was in finding out, if they were able to cut 
the case load in half, can we provide additional resources that 
would give State Department the opportunity to cut that case 
load down even to a greater extent?
    Mr. Ford. Let me see if I can answer that. My understanding 
is they've hired 10 additional staff at this point in time, and 
that their plan is to hire another 13 in the next Fiscal Year. 
At the beginning of last year, they were operating at a level 
of approximately 150 cases per worker. We understand, with 
their current on board strength, they are down to approximately 
80 cases per worker. So they've almost cut it in half. There 
was a reference earlier this morning regarding what a desirable 
case load would be. We contacted a number of social worker 
organizations who indicated that 35 is a good number.
    The State Department has not indicated to us what number 
they're trying to get down to. However, they did indicate they 
wanted to reduce their case load at least by one-half from last 
year's level.
    Mr. Lampson. What kind of reporting are they making as far 
as resolution of the cases that they work? For example, we've 
been, in my office, been working on one particular case now for 
a little better than 2 years. We're not convinced that that's 
moving very quickly, and we think that there is an opportunity 
for progress to be made. Do you have any sense of that?
    Mr. Ford. One of the things we tried to determine in 
reviewing the State Department's process here was how 
frequently they attempt to contact parents involved in these 
cases, and whether they had a standard that they were trying to 
follow. In other words, whether they would try to contact an 
individual once a month or once every 3 months or whatever. 
It's our understanding that they currently don't have a precise 
criteria. They indicated that they like to try to meet or talk 
to an individual at least once a month for Hague cases, and I 
believe they used the criteria of once every 3 months for non-
Hague cases.
    I think that the idea of reducing case load is really for 
the purpose of more frequent information to parents on the 
status of their cases. This is an area that has seen a number 
of complaints on the part of parents. They don't feel that the 
State Department has been responsive in some cases, and I think 
that this is a step in the right direction, because if they can 
more frequently inform parents on the status of cases, it gives 
the parents a better understanding of what they may need to do 
in terms of taking further action.
    Mr. Lampson. I don't know another question right now to 
ask. Let me pass for a few minutes. Thank you very much for 
letting me sit in.
    Mr. Brady. You're welcome, and please feel free to join us 
through the rest of hearing.
    Mr. Ford, a couple of thoughts. One, we talked earlier 
about resources, and it's clear both State and Justice have 
taken some very positive steps in increased communication, 
lower case loads. Issues like that are very critical. In your 
report, as you end it, you point out that it is difficult to 
know what is needed to solve the problem because you need more 
information, or we need more information.
    For example, according to State Department officials, all 
of the planned diplomatic initiatives are contingent on 
additional funding, but they have not provided us with the 
information about the source and level of funding necessary for 
these activities. In addition, we don't have funding 
information yet on nearly all the remaining planned changes in 
the Federal response, including resources needed to fully 
implement the case tracking system.
    Basically, as I read it, your point is, because we don't 
know what it will take to make significant improvements--I 
can't say solve the problem, but make significant 
improvements--it will be difficult to make those improvements 
until we have better information. Your hope is that, by the end 
of the year at some point, that Congress, Washington, the 
Federal Government, together, will have a clear idea of what is 
needed and what those specific actions will result in. Is that 
correct?
    Mr. Ford. Yes, sir. That's exactly our point. You know, 
when we looked at the number of recommendations that the 
Department of State and the Department of Justice have come up 
with to deal with this issue, it's a fairly impressive list of 
potential areas. The real issue is implementation. Some of 
these things are going to cost money.
    They talk about providing some form of financial assistance 
to left-behind parents; expanding counseling; developing some 
mentoring programs. I think Secretary Ryan talked about an 
international conference later this year that the State 
Department is considering sponsoring to bring other parties to 
The Hague Convention together and talk about what can be done 
about it.
    What we're trying to get an understanding of, is what kind 
of resource commitments are now going to be required and 
whether or not they are going to be forthcoming. Because if 
they don't, then many of these actions may fall to the wayside 
and they may not get done.
    Mr. Brady. Are there any models from the states or others 
where they have improved the system for communication? For 
example, I know in some states, because when you're a parent, 
you call a caseworker, if you don't get a timely response, it 
tends to create three or four or generate three or four more 
calls. It tends to add to the case load of someone who's 
already, you know, up to their eyeballs as it is. Some States 
moved to a communication-type office where there is a one-stop 
system. A person can give you a prompt, within privacy limits, 
of where that case is and then manage that communication more 
efficiently, effectively. Have you seen any of those 
recommendations? Or do we have some models?
     Because some of these problems we already have existing in 
states and they're making some good progress. Have we looked at 
some of those models to apply, not on the international side, 
but on the operational side?
    Mr. Ford. I'm going to let Mr. Kachura answer that, because 
I'm not aware of the state models, but he says he is, so I'll 
let him answer that one.
    Mr. Kachura. Sir, we have looked at some states, especially 
from the perspective of whether they might serve as models for 
the Federal Government. One state in particular, California, 
has a very effective mechanism in place to deal with these 
types of issues. Of course, California may be a bit 
idiosyncratic in the sense that a fair number of their outgoing 
cases wind up in Mexico. The state itself has established a 
very close relationship in trying to work with Mexico to 
identify the location of the outgoing cases and try to get 
their return.
    So, yes we have looked to see if there are models. 
Certainly California might serve, to a certain extent, as a 
partial model. But, for the most part, given all the states, 
no, there aren't that many out there.
    Mr. Brady. A final question for me, at least, before I 
return the Chairmanship to Chairman Gilman. In implementing the 
recommendations or developing the recommendations, are we 
recognizing that this problem will only grow? That the world is 
getting smaller; that people are more mobile; that there will 
likely be a trend in this? Do you think our efforts to reduce 
case load and deal with diplomatic problems on both ends 
recognize that it will require even greater resources in the 
future?
    Mr. Ford. I think we heard from the State Department, for 
instance, this morning. They certainly believe that this is a 
growing problem. We have no reason to doubt that they are not 
sincere in trying to improve their overall response to this 
issue. I think that we need to follow what actions they end up 
taking in regard to the recommendations. I think that some of 
the comments made by the Committee this morning regarding 
overseeing the effort are good steps and should be taken.
    Mr. Brady. Thank you, Mr. Ford. Mr. Chairman.
    Chairman Gilman. [presiding] Thank you, Mr. Ford, and your 
good associate, for being here with us today. We look forward 
to utilizing your report for further implementation of some of 
the recommendations that we discussed.
    Mr. Ford. Thank you, Mr. Chairman.
    Chairman Gilman. The panel will be dismissed. We thank for 
your time.
    We are gratified to have four parents of abducted or 
wrongfully detained children who have volunteered to appear 
before us to share some of their tragic experiences. These four 
parents come from diverse backgrounds, illustrating that this 
problem can occur to anyone in practically any walk of life.
    Lady Catherine Meyer is the wife of one of Great Britain's 
top diplomats, and our good Ambassador here in Washington, Sir 
Christopher Meyer. The abductor of Lady Meyer's two sons is her 
first husband, a doctor from Germany. Lady Meyer has authored a 
book, ``They Are My Children Too,'' which was published in the 
United States last May. This book should be read by everyone 
who wishes to understand the profound and devastating effects 
of this type of situation.
    Mr. Thomas Johnson works in the Office of Legal Advisor, at 
the State Department. He's an expert in international law 
enforcement and extradition, as well as a wide array of other 
international legal matters. His former wife, a Swedish 
diplomat, has wrongfully retained their daughter in Sweden, and 
Mr. Johnson has been subjected to a series of outrages by the 
Swedish authorities. I'm going to ask, as I read off these 
witnesses, if they would take their seats at the witness table. 
Mr. Johnson has been subjected to a series of outrages by the 
Swedish authorities who have refused to recognize U.S. court 
orders regarding the custody of his daughter, and denied his 
application under The Hague Convention for her return to the 
United States. Although an employee of the Department of State, 
I want to emphasize that Mr. Johnson is appearing today at my 
specific request, and is testifying strictly as a private 
citizen who is a parent of a wrongfully retained child.
    Mr. Paul Marinkovich, of Simi Valley, California, is a 
commercial real estate appraiser. His ex-wife, an American 
citizen, abducted their son to Sweden when he was five years 
old, in August 1996. Through his own resources, with the 
assistance of a private investigator, Mr. Marinkovich has been 
able to discover the location of the abductor. Thus far, the 
Swedish authorities have maintained that they are unable to 
assist Mr. Marinkovich because of Sweden's secrecy law that, 
bizarrely, is being used in this case to protect persons that 
are the perpetrators of violations of Swedish law.
    Mr. Thomas Sylvester is a business executive in the 
automotive field from Cincinnati, Ohio. His daughter, Carina, 
was abducted by her mother, an Austrian citizen, when she was 
barely 1 year old, in October 1995. Despite winning his initial 
Hague case in Austria, Mr. Sylvester was not able to regain his 
daughter due to the inability or unwillingness of the Austrian 
authorities to force the abductor to comply with the rulings of 
Austria's high court. After this grave miscarriage of justice, 
Austrian courts ruled that The Hague process for the return of 
his child no longer would apply in Mr. Sylvester's case, and he 
has been trying to gain access to his daughter and establish 
his rights of visitation within the Austrian judicial system 
for over 2 years.
    I would also like to note the presence of Mr. John Lebeau 
in our audience. Mr. Lebeau was successful last year in 
regaining his two young children, Luke and Ruth, who are also 
with him today, after they were abducted to Europe by their 
mother in 1996. We are pleased to see you here today, Mr. 
Lebeau.
    Mr. Sylvester's Representative, the gentleman from Ohio, 
Mr. Portman, has requested the opportunity to also say a few 
words on behalf of Mr. Sylvester. Before giving him the floor, 
I'd like to express the Committee's gratitude to our four 
witnesses for their willingness to share some personal and 
extremely painful experiences with us in the hope that other 
parents may be spared some of the miseries that they've had to 
endure. Mr. Portman.
    Mr. Portman. Mr. Chairman, thank you very much for the 
opportunity to testify before your panel, the distinguished 
minority Representative, Mr. Gejdenson included. I also would 
like to acknowledge my colleague from Cincinnati, Mr. Chabot, 
who has been very helpful to me in this matter, in giving me 
advice.
    I'm here to talk about Tom Sylvester, who's with us this 
morning. He's a constituent of mine. He's already appeared, Mr. 
Chairman, before the Senate Foreign Relations Committee. As I 
told him earlier today, it's now time to come where the power 
resides in the House.
    He has had a very difficult time. I think you will find his 
testimony heart-wrenching. I think that you will find it very 
enlightening as you begin the process of looking at this issue. 
His daughter, as you indicated, was taken from him by his 
Austrian-born wife on October 30, 1995. Although both the 
Austrian central authority and the Austrian supreme court ruled 
that Carina should be returned to the United States, to her 
father, the ruling was never enforced.
    I've been working on this for the last year and a half, 
since July 1998, with the State Department, with the Justice 
Department, trying to get some resolution of this issue and 
trying to get these rulings enforced. Unfortunately, as you 
know, Mr. Chairman, although The Hague Convention on 
International Child Abduction has helped in getting this just 
decision rendered, the United States currently has no way to 
force another country to enforce its own laws and judicial 
decisions within its borders. In fact, the United States has no 
recourse if another participating country does not live up to 
its obligations under The Hague Convention.
    I am pleased, Mr. Chairman, that you are taking a close 
look at this issue. I think it's very important. I look forward 
to following it and being helpful where I can in this specific 
instance but, more generally, in your work and reviewing your 
findings and proposals. I would hope that you would give Mr. 
Sylvester's recommendations and the document that he's going to 
submit for the record full consideration. Again, I thank you 
very much for allowing me to testify before the panel, and I 
look forward to following this.
    Chairman Gilman. I thank the gentleman from Ohio, Mr. 
Portman, for coming to be with his constituent. Thank you for 
taking your time.
    Our next witness is the gentleman from New York, Mr. 
Michael Forbes, who has requested the opportunity to appear 
before the Committee today, and I believe with regard to the 
case of a constituent who's the parent of an abducted child.
    Mr. Forbes, you are free to summarize your statement, which 
will be entered in the entirety in this record. You may 
proceed.

   STATEMENT OF THE HON. MICHAEL FORBES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Forbes. Thank you, Mr. Chairman. I appreciate, along 
with my colleague, Mr. Portman from Ohio, the opportunity to 
speak to the panel and for your sensitivity and Mr. Gejdenson 
and the other distinguished Members of this panel for putting a 
light on this, what I think, is a really very perplexing 
problem. My heart goes out to the families who are here today, 
as well as others across the country who are dealing with this 
problem.
    Frankly, to offer my perspective on The Hague Convention on 
International Child Abduction and its implementation, I believe 
it's important that we have to strengthen multilateral 
cooperation among nations on humanitarian issues, particularly, 
though, on these issues involving children and international 
adoption and the heart-wrenching problem of abduction.
    My recent experiences on behalf of Vedia Tunga and Cebrail 
Tunga, the seven-year-old boy who was abducted by his father, 
showed to me that The Hague Convention is certainly more than 
just a sterile document. Instead, it is clear that it is a 
living, breathing, tool that can be used in these instances of 
abduction particularly. I appreciate the Committee's time and 
the chance to have my full statement made a part of the record.
    Chairman Gilman. Without objection, it will be made a part 
of the record.
    Mr. Forbes. Thank you, Mr. Chairman. Briefly, back in 
August, I appealed to the State Department, the White House, 
and the Republic of Turkey to secure the return of seven-year-
old Cebrail Tunga, who had been stolen from his home on Long 
Island where his mother has legal custody of him, and he was 
taken to Istanbul by his estranged father. Initially, I thought 
that the issue was pretty simple. An American citizen, the only 
child of an American mother who had been awarded sole custody, 
had been abducted and taken to a foreign land. Clearly, I 
figured if we appealed to the State Department, we could 
correct this wrong rather quickly.
    Unfortunately, I was given a quick eye-opener. In fact, 
because Turkey had not ratified The Hague Convention, the State 
Department basically said that the United States could not get 
involved. It was as simple as that. Fortunately, we were able 
to appeal to the highest levels at the White House and we did, 
ultimately, have an opportunity to get the State Department 
involved. But, frankly, it was not enough, initially, that the 
State Department says that you're just going to have to work 
with the Turkish courts.
    This is a heart-wrenching problem. Not every parent has the 
ability to go to the highest levels of the White House to get 
intervention by the State Department. I think that, regardless 
of whether The Hague Convention has been adopted by that host 
nation or not, I think that, working with the United States, we 
should abide by the spirit of this Convention and put as an 
ultimate goal here our need to make sure of a child's 
whereabouts and ensure the child's safety and a reuniting of 
the child with the parents here in the United States. This 
should guide our actions rather than some bureaucratic response 
that just says simply they haven't ratified the treaty.
    I thank the Committee for focusing tremendous attention on 
this. Again, my heart goes out to all of the families who are 
here today. This is a very personal, heart-wrenching problem 
for so many of them, and I'm hopeful that the Committee may 
take action so that we can strengthen our ability to return 
these children who are separated from their legal parents here 
in the United States. I thank the Chairman.
    [The prepared statement of Mr. Forbes appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Forbes. We thank you for 
your interest in this very critical issue, and we hope you'll 
assist us as we go along further.
    Mr. Forbes. Thank you.
    Chairman Gilman. We'll welcome your comments.
     Our first witness is Lady Meyer.
    Welcome, Lady Meyer.

 STATEMENT OF LADY CATHERINE MEYER, PARENT OF AN ABDUCTED CHILD

    Lady Meyer. Thank you, Mr. Chairman. On behalf of all the 
parents, thank you very much for listening to us, on what is, 
for us, a very important issue.
    Many of you know about my case, so I won't talk about it 
too long, but I was married to a German citizen. We had two 
children. We separated in 1992. I sent my children on their 
holidays to Germany in 1994. They have not been returned and, 
since then, I have hardly seen my children. My case is typical 
of how The Hague Convention does not work, and how some 
countries do not abide by the terms of The Hague Convention.
    The first hearing in England ordered the immediate return 
of the children under article three of The Hauge Convention. A 
second hearing in Germany ordered the immediate return of the 
children, but my ex-husband asked for half an hour to bring the 
children to the court building and, in defiance of the court 
order, he bundled the children into a car and vanished.
    He then went to the higher court without my knowledge and 
asked for an appeal on an ex parte basis, meaning that I was 
not allowed to be represented. One month later, the German 
higher court decided to keep the children using article 13b of 
The Hague Convention. The idea was that the children were old 
enough since, and I quote, a seven-year-old child faced with 
the decision to play football or judo generally knows what to 
decide. On this basis, the German judges decided that my 
children were suffering in a foreign environment, ``especially 
since German was not spoken at home or at school'' and that I 
was, in any case, a mother who worked and had no time for 
them--so they should remain in Germany.
    But my nightmare did not stop there. Not only were the 
children not returned under the terms of The Hague Convention, 
but, since then, I have been denied normal access to my 
children.
     In the past five and a half years, I have seen my children 
for a few hours. Not days, not weeks, but just hours. As of 
today, I have no rights whatsoever, because under German law, 
(as in Austrian law since it is the same legal system) access 
rights are not enforceable. So, even when the court gave me 
very minimal access rights--and three hours a month, which is 
not terribly convenient since I live in the United States--and 
my ex-husband refused to bring the children, the court refused 
to enforce the order.
    So the months pass and the years pass and there I am 
without being able to see my children. My parents have also 
been denied access to their grandchildren. My father is 87 and 
he will probably never live to see his grandchildren again.
    On two occasions when I saw the children, in 1994 and 1998, 
I told my eldest son: ``I wanted to see you. I love you. I've 
been trying to see you all those years.'' His reply was: ``You 
lie. Daddy told us that you could come and see us whenever you 
wanted, but you never did.''
    I just want to say two more things. One is for everybody 
who is not a victim of parental abduction: I realize how 
difficult it is to really understand how it feels. But I can 
tell you that child abduction is probably a parent's worst 
nightmare. Simply imagine returning home 1 day where all your 
children's possessions are there, but your children are gone. 
It is a pain that never dissolves, and many parents find that 
it would be probably easier to come to terms with the shock of 
bereavement than with a situation marked by prolonged 
uncertainty and anxiety.
    I know about it because I've been there. For the past five 
and a half years I have lived this pain. There is hardly a day 
that goes by when I do not worry about my children. There is 
hardly a day that goes by when I don't dream about them. I, as 
a mother, can never rest in peace because I know that the 
ultimate victims are my children.
    Since I have been in America, I have been trying to fight 
to bring attention to the issue of child abduction. I have been 
approached by many, many other parents who are in the same 
position as I am. I am bringing with me today over 30 cases--in 
fact I think 36 cases--of U.S. parents who have written to me. 
Some of these cases might have been included in the official 
figures, but many of them are not, because many parents are too 
afraid to go to the central authorities. They are too afraid to 
talk in public about their cases. Because they know, as I found 
out at the time, that the German courts will use it against 
you.
    Chairman Gilman. Lady Meyer, we have some of those for the 
record, and will be made part of the record, those cases.
    [The information referred to appears in the appendix.]
    Lady Meyer. In my written testimony, I explain in more 
detail the attitudes of the German courts, and how those other 
parents have been treated in exactly the same way as I have. 
The problem is, as we were discussing before, that every 
country has its own judicial system.
    In Germany, for instance, you can make ex parte emergency 
decisions. So when a child is abducted to Germany, the German 
courts can change the jurisdiction ex parte, without the other 
party knowing. This removes the basis for a Hague Convention 
case.
    Then the German authorities are not being very helpful. The 
German courts have also consistently used article 13b ``the 
child's objections'' not to return abducted children. In fact, 
there's been a report written in England in 1996, the Lowe 
Report, that found out that every time the abductor used 
article 13b--since it is one of the only objections to the 
return of the child, an abductor will, in essence, use it as a 
defence--the German courts did not return abducted children. 
Some of these children were three and five.
    The other problem with the German courts is that you don't 
have enforceable access rights. In this sense, all the parents 
that I've been in contact with are in a similar situation as 
me: not only were the children not returned, but they have also 
been denied access to them, their most elementary human right. 
The authorities often talk about child abduction as being a 
private matter, but it isn't a private matter. In my opinion, 
it is a breach of human rights. Every child should have a right 
to see both its parents. Every parent should have a right to 
his or her child.
    I have a case, that of Mr. Joseph Cooke, which is 
available. His children were taken away, abducted to Germany, 
and they are now in a foster home. But Mr. Joseph Cooke has 
been unable not only to have his U.S. children returned to 
America, but also he has been unable to gain access to them. 
This is a human rights issue.
    It is also an issue for governments and authorities to get 
involved with, because when foreign countries do not abide by 
international conventions, which Germany, Austria, and some 
other countries do not, I think it is a matter for governments 
to be involved with. Mr. Chairman, I know that the German 
authorities that I have approached on many occasions--as have 
other parents--constantly come back and say that the German 
judicial system is independent.
    But I know from my husband that your Committee is, for 
instance, very interested in the affairs of Northern Ireland. I 
know my husband that your Committee is particularly interested 
in human rights, and does not hesitate to express its views on 
the administration of Justice there, although our legal system 
is independent.
    So I urge you to please look into the countries that do not 
abide by The Hague Convention and raise the matter with them. 
The only thing we want is our human right to see our children.
    [The prepared statement of Lady Meyer appears in the 
appendix.]
    Chairman Gilman. Thank you, Lady Meyer, for your very 
poignant remarks. We will be pursuing these issues down the 
road. I now ask Mr. Tom Johnson if he would proceed with his 
testimony. You may put your whole statement in the record and 
summarize or whichever you deem appropriate. Please proceed.

  STATEMENT OF THOMAS A. JOHNSON, PARENT OF AN ABDUCTED CHILD

    Mr. Johnson. Thank you, Mr. Chairman, it's a privilege to 
be here today. As you indicated, I'm here in my private 
capacity, although I've been a Department of State attorney for 
many years. I've taken annual leave to be here today, and I've 
used no government resources to prepare this statement.
    Mr. Chairman, Congress really is the only hope for us, 
despite what the Administration officials have told you. We 
greatly appreciate your efforts and the efforts of your 
colleagues, despite executive branch opposition and obstruction 
over the years.
    Mr. Chairman, the norm for American parents in the vast 
majority of these cases is no return of the child under The 
Hague Convention or otherwise; no possibility of gaining 
extradition of the abductor because the executive branch has 
negotiated one-way extradition treaties with countries that 
will not extradite their nationals; no possibility of 
enforceable access to, or visitation with the child because, as 
Lady Meyer just indicated, most foreign legal systems have 
nothing comparable to contempt of court and cannot enforce 
their own civil court orders; and no effective assistance from 
the U.S. Government, which, in fact, stands ready to assist the 
abductor and his or her supporting government through 
enforcement of foreign child support orders and the extradition 
of American parents who rescue their children.
    Mr. Chairman, my daughter's case is summarized toward the 
end of this statement, on pages 22 to 24, but most of the 
statement concentrates on what necessarily must be the 
Committee's primary focus, and that is remedial actions that 
will help all Americans.
    Mr. Chairman, that said, it is important at the outset to 
note the human impact of these cases, and the truly barbaric 
conduct of governments such as Austria, Germany, and Sweden, 
that enable their citizens to abduct and wrongfully retain 
American children with impunity. Amanda has not seen her 
American family, friends, school, church, and home environment 
for more than 5 years. She has several grandparents here, but 
none in Sweden. She has two baby sisters here whom she has 
never met, with another due next month, but no brothers or 
sisters in Sweden.
    More importantly for this Committee, Mr. Chairman, Amanda's 
abductor could not have succeeded without the Swedish 
government's comprehensive financial support and other forms of 
assistance. Governments such as Sweden, that virtually 
encourage child abduction and retention by their citizens, 
could not succeed without the United States Government's 
silence, refusal to make them pay any price for their treaty 
violations and human rights abuses, and failure to protect 
American citizens. That is what this statement is about, Mr. 
Chairman.
    I would point out, since there won't be time to get into 
them in detail, that my statement does address what would be 
the essential elements of any credible GAO investigation and 
report on this subject; specific recommended Congressional 
actions on pages 30 to 37 of the statement; specific proposals 
for the United States and other parties to The Hague Convention 
to improve implementation on pages 37 to 41; a two-page summary 
on pages 20-21 of the Swedish government's system of abduction 
and wrongful retention of children as an example of what the 
executive branch should be drafting and disseminating 
nationwide to all U.S. courts and law enforcement authorities; 
on pages 43 to 45, the latest unsuccessful effort to get the 
Human Rights Bureau of the State Department to address this 
matter in the Human Rights Report, as it should be. Finally, 
Mr. Chairman, on pages 46 to 53, a submission to the United 
Nations Committee on the Rights of the Child that I prepared, 
but is the sort of thing that the State Department should be 
preparing and submitting to the Committee.
    It may be of interest to this Committee to know that the 
Committee on the Rights of the Child has chided Austria and 
Sweden and told them to review their legislation on respect for 
foreign custody laws and court orders. If the State Department 
would take on that sort of role in this area, we would all be 
greatly assisted.
    Mr. Chairman, quickly going through the specific proposals 
for Congressional action which, as I indicate, is the only hope 
for American left-behind parents in most cases. First, starting 
on page 31, with regard to the U.S. central authority, Mr. 
Chairman, until this function is shifted elsewhere in the U.S. 
Government, things are not going to improve. The Civil Division 
of the Justice Department is a possibility. But Congress really 
needs to mandate a shift of this function away from the State 
Department.
    Second, Mr. Chairman, it is hoped that Congress will direct 
that the National Center shift its emphasis and work from 
``incoming'' cases and assisting foreign parents to helping 
American parents in ``outgoing'' cases. Because at this point, 
American parents really have no one as an advocate for them.
    Mr. Chairman, in the Human Rights Report area, I think I 
make the case very persuasively on pages 31 and 32 that this 
subject belongs in the Human Rights Report on its merits, 
wholly apart from any other considerations. What happens in 
these cases is contrary to provisions in several international 
human rights instruments, and that would make a real 
difference. There's no substitute for publicity.
    With regard to bilateral relationships, Mr. Chairman, the 
State Department should be directed to negotiate bilateral 
agreements on visitation and access, as is encouraged and 
promoted by The Hague Convention on the Rights of the Child.
    With regard to extradition and mutual legal assistance 
treaties, Mr. Chairman, my statement addresses several 
conditions that should be met before we continue our 
extradition and mutual assistance relationships with certain 
foreign governments.
    Mr. Chairman, you may or may not be aware of it, but the 
State Department is busily negotiating child support 
enforcement agreements with many of the countries that are 
involved in the abduction of American children. Mr. Sylvester 
and I have already received threatening letters and court 
orders from the Austrian and Swedish authorities concerning the 
payment of child support and, quite frankly, Mr. Chairman, 
there's no way to fix this legislation. It needs to be 
repealed.
    If it's kept in place, then the State Department needs to 
be prohibited from negotiating any child support arrangements 
with countries that don't give enforceable visitation to 
American citizens and to prohibit any arrangements unless they 
include ironclad exclusions for cases where there's been a 
violation of U.S. law, crimes committed here, violations of The 
Hague Convention, and so on.
    Mr. Chairman, the 1993 International Parental Kidnapping 
Crime Act simply is not being implemented generally. Parents 
like us face three hurdles: the FBI, the U.S. Attorney's 
Office, and the Office of International Affairs in the Criminal 
Division, and the chances of success are not good.
    Mr. Chairman, documents are routinely denied to American 
parents that they should have. We have a right to know 
everything that our government has done and failed to do, and 
the Privacy Act and the Freedom of Information Act are both 
being misused. In terms of resources--and I think I'm 
indicating that resources are not the problem here but rather 
political will--there's going to be litigation against the 
State Department because of its violations of FOIA, and that's 
going to eat up some resources unnecessarily.
    Also, Mr. Chairman, I propose an exception to the Foreign 
Sovereign Immunities Act so that we as private citizens can 
bring a cause of action against these governments for damages. 
Bilateral claims should be pursued by the State Department.
    Finally, Mr. Chairman, it would be helpful if Congress 
would direct the State Department to issue an interpretation of 
The Hague Convention to all U.S. courts that it is a grave risk 
to return a child to a country where there is no enforceable 
access or visitation for a U.S. parent. In other words, if a 
foreign legal system does not have something like contempt of 
court, then we should not be sending children back to that 
country.
    Chairman Gilman. Mr. Johnson, I'm sorry to interrupt. I am 
going to have to go to the Floor to vote. I'm going to declare 
a short recess. Mr. Chabot's on his way back to continue the 
hearing, I'll declare a brief recess at this time in order to 
vote.
    [Recess.]
    Mr. Chabot. [presiding] The Committee will come back to 
order, and I understand that Mr. Johnson was still involved in 
his testimony, so take whatever time you deem appropriate to 
continue.
    Mr. Johnson. Thank you, Mr. Chairman, I realize we have 
limited time and I don't want to cut into the time of my fellow 
witnesses too much.
    What I had just done, Mr. Chairman, was summarize the 
specific recommended Congressional actions on pages 30 to 37 of 
my statement, making the point that really the only hope for 
American left-behind parents is Congress, because of the 
failures of the executive branch and the demonstrated record 
over the past year, especially, that they're dedicated to the 
status quo.
    Mr. Chairman, I just wanted to make a few more points. 
Basically, that the situation would begin to change literally 
overnight if Congress would require the executive branch to 
take several of the actions that I, and others, have suggested 
which cost nothing. It really is not a resource problem. It's 
political will more than anything else.
    Mr. Chairman, if nothing else, the past year has indicated 
that the State and Justice Departments will not take these 
actions voluntarily. You have a Hague Convention compliance 
report that does not comply with the letter and spirit of the 
law that you passed. The task force report to the Attorney 
General has nothing to do with the realities facing American 
parents, and is noteworthy for what it omits, what it fails to 
say. There has been State Department opposition to all pending 
legislation in this Committee and in the Senate Foreign 
Relations Committee, with no proposed alternatives. Of course, 
it's reasonable to quibble, but total opposition to all the 
efforts of Congress to make things better reveals the State 
Department's true colors.
    The National Center, which is the best player on the field, 
has been pressured by the State and Justice Departments to 
continue focusing only on incoming cases, to be responsible for 
those cases. There's supposedly going to be some new 
information sharing with regard to outgoing cases, but the case 
files will remain at the State Department, and the bulk of the 
National Center's time will be spent helping foreign parents at 
U.S. taxpayer expense while American parents have no effective 
advocate whatsoever.
    Many of these children brought to the United States are 
brought here because the American parent cannot get fair 
treatment in the foreign court and will not be able to get any 
enforceable visitation or access, because the other countries 
do not have anything like contempt of court in their legal 
system.
    One point I made just before you came back, Mr. Chairman, 
was to say that Congress, starting with this Committee, should 
direct the State Department to interpret article 13b, grave 
risk, as a basis for not returning children under The Hague 
Convention, to include situations where a child would be going 
back to a place where there's no enforceable access or 
visitation whatsoever.
    That is certainly a grave risk to the child, who has the 
right to have a relationship with both parents. Our legal 
system can deliver; the foreign legal systems we're talking 
about cannot, and will not and they've been given no incentive 
to change their ways by the executive branch.
    Mr. Chairman, today there's no accountability within the 
executive branch, few preventive measures to educate American 
courts and law enforcement authorities, let alone the public, 
and no strategy to achieve full compliance with The Hague 
Convention and other applicable treaties, especially human 
rights treaties. There is no political will in the executive 
branch to take effective remedial measures that make foreign 
governments pay a price for what they've done to American 
citizens. The reality is that foreign governments provide far 
more assistance to their citizens who abduct American children 
than the U.S. Government supplies to American parents whose 
children have been abducted.
    Mr. Chairman, all of us are here because we've lost our 
children, but we don't want additional American parents to lose 
their children. That is a certainty, an absolute certainty, 
unless Congress takes charge and enacts legislation or takes 
other actions along the lines that I and others have suggested 
so that the U.S. Government is carrying out the most 
fundamental responsibility of any government: to protect its 
citizens at home and abroad.
    Diplomatic and legalistic approaches will not work. They 
must be backed up by demands for reciprocity and a willingness 
to impose consequences on foreign governments that continue to 
provide any form of support to those who abduct and retain 
American children abroad.
    Mr. Chairman, in concluding, the reality that would be 
helpful for this Committee, and Congress in general, to address 
is that the problem goes well beyond the fact that foreign 
governments are violating their treaty obligations to the 
United States with impunity, refusing to return American 
children under The Hague Convention, stealing custody 
jurisdiction from American courts, and awarding sole custody to 
their citizens who have committed Federal and State felonies.
    Even at that point, one might reasonably assume, as I did, 
that the worst-case scenario is being a noncustodial parent 
with only 4 to 6 weeks of visitation in the United States each 
year. Regrettably, the fact is that most American children are 
completely and permanently lost to their American parents, 
families, friends, and home environments.
    In short, Mr. Chairman, the refusal of a foreign country to 
grant a Hague return application from the United States means 
that the child will be lost completely to its American parents.
    Finally, Mr. Chairman, I believe it was Mr. Brady who said 
that actions speak louder than words. I've just indicated how 
the actions of the State and Justice Departments in the last 
year with regard to the documents they've supplied to Congress 
and their opposition to legislation speak louder than their 
words.
    The only other point I would make, Mr. Chairman, is that 
the GAO report should not focus on resources. It should focus 
on the adequacy of the performance of the State and Justice 
Departments in terms of dealing with foreign governments. Is 
there any strategy for dealing with violator countries? Is 
there cooperation between the State Department and the National 
Center? And so on and so forth. Those points are detailed on 
page 14 of my statement.
    With regard to human rights, as Lady Meyer has indicated, 
this subject belongs in the Human Rights Report on its merits. 
The leading expert on The Hague Convention, the leading expert 
in the world, Adair Dyer of Texas, for many years the senior 
Hague academy official responsible for this Hague Convention, 
has said, ``Of course, The Hague Convention is a human rights 
treaty.'' He's right. The First Lady has been right when she 
has repeatedly said this. She's right legally and morally. 
Several international treaties cover the subject.
    If you look at what is in the Human Rights Report today, 
devoted almost exclusively to what foreign governments do to 
their citizens, in 2,000 pages or so each year, it's not asking 
too much for the State Department to address what foreign 
governments do to American citizens, systematically, through 
their legal and social welfare systems.
    Thank you, Mr. Chairman. I don't want to take any more time 
away from my fellow witnesses. I'd be happy to answer questions 
later. Thank you.
    [The prepared statement of Mr. Johnson appears in the 
appendix.]
    Mr. Chabot. Thank you, Mr. Johnson.
    Mr. Sylvester, would you mind deferring and we'll go with 
Mr. Marinkovich and go with you after that, if that's OK? If 
you're ready, sir? OK, thank you. We'll go with Mr. Marinkovich 
first.

   STATEMENT OF PAUL MARINKOVICH, PARENT OF AN ABDUCTED CHILD

    Mr. Marinkovich. Thank you, Mr. Chairman, and the 
Committee. I've really appreciated your Committee and the 
Congress in general, for standing as a rock in a stream of 
governmental indifference on this particular issue.
    I was sitting here just before I started, very angered when 
I heard the Justice Department and the State Department's 
Testimony. When I left town, the headlines in the paper read 
that a local father is going to Washington to ask the Congress 
for more than words. At least on one point I want to deliver to 
you more than words in this following statement.
    The Justice Department talked about and gave examples of 
extradition cases that did not work. Now you know the negative. 
I want to present to you today, I want you to look in the eyes 
and the faces of an extradition that did work, and brought home 
two very beautiful children right over there. They are Mr. 
Lebeau's children. Isn't this what we're all up here fighting 
for? Isn't this why we're all here? When I talk to my Justice 
Department and my State Department, I want to hear about these 
cases. I want them to fight for children like these.
    My 8-year-old son Gabriel was lost to an act of 
international parental abduction on August 19, 1996, over 3 
years ago. Frustrated that the police absolutely refused to 
act, I hired my own expensive private investigator who found 
him promptly in Sweden. I immediately then called the State 
Department and tried to implement The Hague Convention. I was 
given a booklet that stated that The Hague Convention was a 6-
week process. My application was held 6 weeks before it was 
even sent to the Swedish government, so we chewed up that time 
really quickly.
    But little did I know that for the next 3-plus years, I'd 
spend over $200,000; I'd travel to Sweden 8 different times; 
Denmark 2 times; and Washington, D.C., this is my fourth trip--
and I'm sure I'll be back again--and wait for over 2 years 
before I got my court decision in Sweden; and have to 
singlehandedly work to expose the corrupt system in Sweden of 
handling American abducted children. I had to send an 
investigator to Sweden on my own personal funds twice because 
the Swedish government told me they were going to close my case 
unless I could prove that they were still in Sweden.
    I now spend the majority of my awake time working to change 
an inefficient American system of retrieving our abducted 
American children. After all of this, I stand before this 
Committee today with just the memories of my son, Gabriel.
    Gabriel was illegally taken out of the United States and 
registered into Sweden with a fraudulent passport and a 
fraudulent birth certificate. These documents provided a 
different name for my son and a fictional father. Concerning 
these fraudulent documents--the Swedish central authority was 
well aware that this information was falsely submitted because 
a Hague application had already been presented to them with the 
correct name for my son and the correct name of myself, his 
father and sole legal guardian.
    They chose to participate in this fraudulent act by 
actually registering my son under the fraudulent name with the 
government and opening The Hague file under the correct name, 
as submitted by the State Department. To add insult to injury, 
the same Swedish government then granted the abductor of my 
son, an American child, Gabriel Marinkovich, secrecy 
protection, which is the equivalent of our witness protection 
program.
    Now, according to Swedish law, secrecy protection can only 
be issued in extreme instances where one's life is in danger. 
But these Swedish officials chose to bypass their own law, 
which requires this protection to be stringently reviewed by 
Swedish police, and, ultimately, the law was completely ignored 
and the Swedish government chose to actively assist in this 
illegal abduction of my son, an American citizen, Gabriel 
Marinkovich.
    Then the cover-up began, when the Swedish government flat 
out lied in documents, in letters to the American government 
that this action had ever taken place. They denied that they 
ever issued secrecy protection for 334 consecutive days. I sent 
my investigator back to Sweden and he uncovered documents that 
were stamped ``secrecy protected'' by the Swedish Tax 
Authority. This proof was presented to the Swedes through the 
State Department, 334 days later, the Swedes admitted to this 
scandal.
    Now, just prior to that, on July 1, 1997, the Swedish 
central authority said that they would close my case if I 
couldn't demonstrate that my son had physical ties to Sweden 
and left the burden of proof up to me to prove that he was 
there. This action directly violates The Hague Convention, 
article 7a. It becomes even more ironic when considering that 
they were secrecy protecting the very same people who they said 
no longer have any ties to Sweden.
    At this point, again I was forced to send my private 
investigator to Sweden. In spite of running into a wall of 
protected identities and secret documents, my investigator 
found the abductor's husband and daughter living in an 
apartment in central Helsinborg. Ironically, it was mere blocks 
away from the station of police who claimed they could not find 
them. In a recorded telephone conversation with my 
investigator, the abductor's husband boldly reveals the 
abductor being absolutely amazed that anyone knew where she was 
because she claimed that the Swedish government had placed them 
under strict secrecy protection and then went on to indicate 
that they were already registered with the tax authority and 
the police who were supposedly looking for them.
    Digging deeper, we found that my son was registered in a 
local school three blocks from the police station under his 
correct name and Swedish ID number, during the time the police 
were looking for him. My investigator then called the Tax 
Authority and inquired about the abductor and my son. He was 
told that they'd return his call, but, instead, he got a phone 
call from a Swedish police officer, ironically enough, the same 
one who was in charge of finding my son. He demanded that he 
come down to the police station immediately or be arrested.
    My investigator went down to the station and found he was 
being interrogated about why he was calling on persons whose 
identity was protected by the government, instead of asking 
questions about where my son is. Now here we were, just steps 
away from actually finding my son, and my investigator had all 
his investigation material confiscated by the Swedish 
government and was told to leave the country immediately.
    I only have a few minutes to talk to you. This is a mere 
token of what I have been dealt from the country of Sweden. 
I've won all my Hague cases. I've won all my court cases. I'm 
the only legal guardian of my son, Gabriel Marinkovich.
    Over the last 3\1/2\ years, the only plan of action that 
the State Department could offer has been--and I'm going to 
quote the words I hear time and time again--``We are continuing 
engagement in talks with Sweden on many different levels.''
    No actions, no threats of action have ever been presented. 
With over 3\1/2\ years of inaction and lack of holding Sweden 
accountable, we have actually taught Sweden, by example, that 
their assistance in the abduction of American children will 
never, ever, bring any reprise. We've taught them this. It's 
not their fault; it's our fault. We have firmly educated them 
that as Americans we're willing to sacrifice our children to 
maintain good diplomatic relations. The OCI has repeatedly told 
me that there is nothing they can do except for simply talk to 
the Swede, which has proven time and time again never to work.
    I could tell you what has worked, though, and what has 
worked are these hearings and interest by Congress. I thank you 
for that. As a result of notifying the State Department that I 
was testifying before this hearing, they all of a sudden 
released documents that they've been holding for over 2 years, 
namely a diplomatic note, that they refused to release to me. 
They released it approximately 2 weeks before these hearings. A 
coincidence? I don't think so.
    As a result of Sweden finding out about my testimony before 
the hearing and finally being declared noncompliant to the 
Congress, they finally agreed to sponsor my son on a show after 
3\1/2\ years of my insistence. This is a show that's very 
similar to America's Most Wanted but it's aired in Sweden. It's 
called Efterlyst. I have been pressing for this for 3 years. It 
requires sponsorship by the government or a police official.
    Today, at 1 our time, the show is going to be broadcast. 
The people of Scandinavia will see my son and his abductor for 
the first time in 3\1/2\ years since he's been abducted from 
the United States. I want to thank this Committee for making 
that possible.
    Also I've found that help from the media has been 
instrumental. In the United States, the Advo Program, an 
incredible program, is run by the National Center for Missing 
and Exploited Children.
    It's been very successful. In my case, it produced hundreds 
of leads in the United States and, if they were here, I know 
that they would have been found. The problem is that, 
internationally, we don't have this resource. We're left at the 
mercy of how governing authorities choose to act. Forming 
relations with international media and promoting interests in 
this matter will greatly help in bringing home American 
children. In fact, as a result of my work with the Swedish 
media, we have been able to show a strong context in our 
government. This media coverage is showing Sweden a resolve to 
find American missing children when our State Department has 
refused to deliver this context to the Swedes.
    I feel that we need public relations people outside of the 
State and Justice Departments who have the sole responsibility 
to get photos and information out about our internationally 
abducted children to newspapers and television stations abroad. 
We're missing this tool. It's incredible and it's free. They 
can also form relations within the countries, with businesses 
and companies, to assist in the printing and distribution of 
information about these missing children, much like our Advo 
Program here in the United States works.
    Now, in addition, this same group of civilians who could 
oversee this could also be granted the right from Congress to 
gain information to these files from the State and Justice 
Departments and provide the Congress with independent oversight 
as to what is wrong in these cases. Today we have the conflict 
of the Justice and State Departments coming down here before 
Congress with the No. 1 context and concern of covering their 
rear ends.
    It's at the expense of our children. We're not hearing the 
real stories. This type of civilian oversight would provide the 
much-needed accountability that we need to do a better job. 
Independent oversight is the only measure that would ensure an 
accurate portrayal of what really is happening.
    Finally, we have to act in our role as world leaders and be 
willing to take action to hold those countries and people 
accountable who abduct our children. We take tough action with 
countries for copyright infringement, for illegally copying 
music and movies, and for other economic reasons. Why are we at 
odds with doing anything less for America's most precious 
resource? The most precious resource in America being our 
children.
    In closing, I want to relate back when I was 18 years old. 
I remember as I watched on television in horror as 54 American 
citizens were taken hostage in Iran for 444 days. During that 
time, America sat horrified. We watched another country strip 
fellow Americans of their rights to life, liberty, and the 
pursuit of happiness, as guaranteed in our Declaration of 
Independence. We as Americans were outraged. We placed yellow 
ribbons everywhere. We held mass rallies, and our government 
boldly intervened with freezing $8 billion worth of Iranian 
assets, halting oil imports, and mounting a near-impossible 
rescue operation because we were so desperate to let the world 
know that we were serious about ensuring these rights for 
American citizens who were taken hostage.
    Now my son has been held hostage in Sweden for 1,144 days. 
Where is the outrage? Where are the yellow ribbons? Where are 
the mass rallies? And where is our government intervention? I 
have stood as the only voice for my son, and I promise to 
Gabriel that my voice will never, ever, remain silent.
    I stand before you pleading that, as members of our 
government, you find a way to send a clear message to Sweden, 
and to other countries, that we are not going to stand for this 
any more. I'm asking this Congress to intervene with some 
reprise, some action, and something ``more than words.'' My 
son's life depends on it.
    Thank you.
    [The prepared statement of Mr. Marinkovich appears in the 
appendix.]
    Mr. Chabot. Thank you very much, Mr. Marinkovich. I have to 
say that your testimony was very moving and we do appreciate 
that.
    Our final witness for this panel, and for the day, will be 
Mr. Sylvester.

    STATEMENT OF TOM SYLVESTER, PARENT OF AN ABDUCTED CHILD

    Mr. Sylvester. Thank you, Mr. Chairman, for holding this 
hearing and thank you also, Congressman Chabot, for your active 
participation. I would like to also express my appreciation to 
Congressman Portman for his introduction, as well as to Senator 
DeWine for his continued interest and support.
    I am Tom Sylvester, father of Carina Sylvester, my 
American-born daughter and only child, who was abducted by her 
Austrian mother from Michigan to Austria on October 30, 1995. 
That was her last day on American soil. Carina was then just 13 
months old. She recently celebrated her 5th birthday in 
Austria.
    In the intervening 4 years, I have worked unceasingly to 
obtain the enforcement of the various U.S. and Austrian court 
orders granted in favor of Carina's return to the United States 
in 1995 and 1996. Unfortunately, not one of the hundreds of 
people I have contacted, and nothing they or I have done, has 
made a difference.
    For me, The Hague Convention has failed in both of its 
objects set out in article 1: to obtain the prompt return of 
abducted children to their countries of habitual residence, and 
to obtain access to abducted children when access is otherwise 
being denied.
    I placed my trust in The Hague Convention and the judicial 
system that implements it. I relied on The Hague Convention and 
the workings of the courts, both here and in Austria, to 
achieve these objects to both Carina's and my detriment. That 
was a mistake.
    I sit here before you 4 years after my daughter's 
abduction, a person who did everything right under The Hague 
Convention, including getting all the right orders both here 
and in Austria. A person who, nonetheless, has lost his 
daughter.
    As to the prompt return of abducted children, the facts are 
that, despite Austria's valid and final order in 1995 for the 
return of Carina to Michigan for a custody determination there, 
affirmed all the way through the Austrian Supreme Court, Carina 
was never returned. The Austrian legal system provides no 
mechanism for a civil enforcement of their orders, rendering 
this and all of their orders useless pieces of paper. Carina's 
mother was never compelled to return her and she has not 
voluntarily done so.
    With the passage of time, the Austrian court reopened The 
Hague case, an action not sanctioned by The Hague Convention, 
ruling that it was in Carina's best interests that the return 
order not be enforced and that Carina was now to stay in 
Austria. The Supreme Court of Austria affirmed, and the case 
was then closed. Oddly, unlike the return order, the order that 
the return order would not be enforced and the child not 
returned is well-respected and honored in Austria. The Austrian 
court, therefore, proceeded to award Carina's mother custody of 
Carina, in violation of article 16, and further ordered me to 
pay child support, retroactive to the very day of her 
abduction.
    As related to access to abducted children, my subsequent 
requests for access to Carina under article 21, submitted early 
in 1998, have not yet resulted in a viable order for access. 
Incredibly, the petition presented to the Austrian trial court 
under article 21 was initially denied on the grounds that The 
Hague Convention no longer applied in this case. Thereafter, 
each time the Austrian court entered an order for access for a 
specific date, the appellate process would extend beyond the 
date for the visit, rendering the exercise useless.
    Most recently, I submitted to the examination of a 
purported expert child psychologist in Austria on the issue of 
how I have accepted the present situation and whether Carina's 
having access to me would be appropriate. He concluded that I 
could not possibly have the child's best interests in mind 
because I asked that she be returned to the United States under 
the return order or, in the alternative, that she come and 
spend time with me and her extended family in the States. It is 
questionable whether I will ever have access ordered, since 
each schedule submitted to the court is unacceptable in some 
respect. The court will exercise no independent judgment, but, 
instead, expects me to submit a proposal precisely in line with 
its unarticulated opinion.
    The court further expressly links access to Carina under 
article 21 with the payment of child support under an Austrian 
order, despite a Michigan order from 1996 that I have custody 
of Carina and pay no support; the lifting of the U.S. warrant 
for the abductor's arrest; and my participation in an Austrian 
divorce case initiated by my ex-wife, from whom I was divorced 
here in the States in 1996.
    Should an order for access under article 21 survive the 
appellate process, just as with the order for return, 
compliance by Carina's mother will never be compelled since 
Austria has no means for such compulsion. Whether Carina is 
made available for access or for return to the United States is 
entirely at the discretion of the abductor. In Austria, 
therefore, The Hague Convention provides no remedy whatsoever 
under either the return objective or the access objective of 
article 1.
    After 4 years of continual activity to rectify this 
situation through legal channels, working exclusively through 
the system devised under The Hague Convention, I can say today 
that there has been absolutely nothing that has been done that 
has made any difference whatsoever to correct this situation. 
Unbelievably, it is not the law of the Austrian government and 
their courts or the U.S. Government and our courts who are in 
control of this situation. It is the abductor who is in 
complete control. This is a case of The Hague Convention at its 
absolute worst.
    I relied on The Hague Convention to my detriment. I have 
discovered one fundamental difference between Austria and the 
United States. Austria forsakes international relations for the 
benefit of its nationals whereas the United States forsakes its 
nationals for the benefit of international relations. Or, as my 
ex-wife put it, ``Tom, the difference between us is that my 
government protects me.''
    There has been no remedy to the wrongful removal of Carina. 
The abductor has gotten away with complete impunity. Now I am 
being confronted with demands from the abductor. I am told that 
I must meet these demands or I risk never seeing my daughter 
again. I am being extorted for my child.
    The real choice for me now is to write off the child; carry 
out a rescue operation; or participate in hostage-like 
negotiations with the person who committed the hostile, 
deviant, and illegal behavior. The system has failed miserably. 
For me, the implementation of The Hague Convention is 
completely dependent on the cooperation of the abductor. Carina 
is being denied her most basic human right, that of having both 
parents in her life. If you have rights that are not able to be 
exercised, it's as if you have no rights at all.
    I hope and pray that productive actions will result for our 
children from these hearings today. If you are a parent 
yourself, perhaps you can imagine the heartbreak of being 
without your child. I ask for your continued interest and 
support. I've prepared a formal set of materials that I ask be 
submitted into the record. Thank you.
    [The prepared statement of Mr. Sylvester appears in the 
appendix.]
    Mr. Chabot. Thank you very much, Mr. Sylvester. Again, very 
moving testimony which I'm sure the Members of the Committee 
will take under serious consideration. I want to thank all the 
witnesses here this morning and, as I mentioned before, I've 
tried to familiarize myself with each of the cases, as have 
other Members of the Committee, and I know that you have our 
sympathy and our support. I can just tell you, personally, as a 
parent of two children myself, I cannot fathom what you all 
must have gone through and be going through, even today. We all 
applaud your courage and your persistence, and fervently hope 
that each and every one of you will succeed in your quest for 
justice.
    Since I'm most familiar with your case, Mr. Sylvester, let 
me start with you. You indicated that in this particular case, 
it's your belief--and I have to say I think I agree with you--
that, in essence, it's the abductor that's in complete control 
of this situation right now and that you're, in essence, being 
blackmailed. Would you expound upon that a little bit, and how 
that has affected your situation?
    Mr. Sylvester. Sure. As I mentioned more specifically, on 
one of my most recent visits to Austria on June 26, 1999, my 
former wife indicated to me that I should take her out to 
dinner. At that event, she reached across the table with her 
elbows on the table and indicated to me, ``Tom, you know, 
there's one difference between you and I.'' And I said, 
``What's that?'' she said ``My government protects me.''
    In reflecting upon that, she actually has the sequencing of 
events over the past 4 years to give that attitude some 
validation. This perception by this foreign national is, I 
think, clear incentive for other foreign nationals to consider 
such actions. Clearly there exists extreme gender and national 
bias in favor of mothers and Austrian nationals in the Austrian 
courts.
    What's most alarming to me is I've just received a report 
just 1 week ago from the Department of State on their visit 
with the Austrians on March 2 of 1999. In the report, it 
indicates that this potential scenario, that being that custody 
of the child would be given to the father, was considered most 
culturally abhorrent to the Austrians.
    The national bias is also exemplified by the undignified, 
but not uncommon practice, of Austrian judges granting non-
Austrian fathers visitation to their child only in small bits 
in Austria, and only under supervision by a third party.
    I'll close by turning now to the U.S. front. At a very 
critical time in my case, back in the summer of 1996, after the 
Austrian Supreme Court had affirmed the trial court's decision 
to return Carina to the place of habitual residence, and as 
enforcement mechanisms were clearly not evident, I called the 
Office of Children's Issues, our central authority for 
assistance, and I talked to the Director of the Office of 
Children's Issues. I beseeched their assistance under article 7 
to cooperate with the central authority of the foreign 
government of the contracting state to ensure the objects of 
The Hague Convention were met. The response I got was our 
strategy is to wait 6 months for the next Hague Conference in 
March 1997. I said, Good God, why would you wait another 6 
minutes?
    Mr. Chabot. Thank you.
    Mr. Sylvester. In closure, to crystallize our U.S. 
Government response, is another perhaps only Administrative 
issue, but I think it does crystallize the level of support 
from our U.S. Government. It's my understanding that under the 
Freedom of Information Act it should take 10 days to respond to 
my request for information relative to my daughter. As I sit 
here before this Committee today, now more than 3 years from 
the time of my original request, submitted through my attorney, 
Jan McMillan, I still don't have that file.
    One final note, in that DOS report--If I may, I have one 
final note. Although I happen to be somewhat delighted that 
Austria's been one of the five countries named as demonstrating 
a pattern of noncompliance to its objects of The Hague 
Convention, I can't help but be concerned when you search out 
and find appendix A where the DOS identifies 56 countries--or, 
pardon me, 56 cases identified as unresolved after 18 months. 
My case doesn't appear. So the Department of State now declares 
my case as resolved. I would like for the U.S. citizen or 
central authority to establish the standard of resolving cases 
when our U.S. children are returned, and not until then.
    Mr. Chabot. On behalf of the Chairman, let me ask a 
question to each of the panel Members here. What is the one 
most important thing that you believe that the Congress can do 
to be of assistance to you and to other parents of 
internationally abducted children? And, Lady Meyer, we'd like 
to start with you.
    Lady Meyer. Yes. If I can just add one quick point to what 
Tom Sylvester said.
    Mr. Chabot. Yes.
    Lady Meyer. In fact, two points. One of the points is to 
just reinforce the idea that it's not so much the behavior of 
our ex-spouses which is the problem but the behavior of the 
foreign courts. Because at the end of the day, they are the 
ones who enforce or do not enforce our access rights.
    The other point is that, most people are not aware, in 
Austria and in Germany they still have what they call ``the 
blood law.'' So, under German and Austrian law, our children 
are just considered either German or Austrian. That, of course, 
plays an enormous role against us foreigners when we try to get 
access or, when we need the courts to behave toward us in a 
nonbiased way.
    But to answer your question, for me, the most important 
issue about child abduction is that I would like this issue to 
be recognized as a human rights issue.
    The second point is that I'm very firm on the idea that 
this is not a private, legal matter. In fact, referring to the 
Reader's Digest article, I was interested to hear the comments 
of the different U.S. departments. Because it's a new issue, 
people think that child abduction is just a custody battle. But 
it isn't. We all had custody, and our children were illegally 
removed. Therefore, the foreign governments or authorities that 
did not return our children were in breach of the treaty and of 
international laws.
    Then, the third point, which relates to the first point, is 
that it's not a private matter when we're denied our most basic 
human right. I said, I have no access rights whatsoever. I have 
no access rights and I have been denied the rights that even 
women in prison are allowed. So it's not a private matter.
    Mr. Chabot. Thank you. Mr. Marinkovich, did you want to add 
anything?
    Mr. Marinkovich. The one thing that these rogue countries 
seem to understand is the principal of economics. I'm using 
Sweden as an example, because that's where my case started. If 
everyone would look in their pockets and I bet we would find 
that we have a whole room full of Ericson phones. I bet that if 
we would go out in the street and look in these parking lots, 
we would see a whole parking lot full of Volvos, and of course, 
we all buy Ikea furniture.
    If there's one thing that is a threat to some of these 
countries--and I know economic sanctions is a large step to 
take--its economics. If there was some sort of tiered system in 
which we stood up for our children first, above anything else, 
by implying that we were moving toward economic sanctions when 
countries don't assist in returning our abducted children, I'm 
sure we'd get a great response from these countries.
    A case in point. At 1 o'clock today my time, 10:00 Pm 
Swedish time, my child is going to be on television. Why? 
Because I'm up here. In front of all of Sweden, he's going to 
be on television. It is illegal in Swedish newspapers to print 
a wanted criminal in their publications. It's a privacy issue. 
So the only reason my son will get broadcast in Sweden, after 3 
years of going there personally and talking to these people, is 
because I'm here today and because the Congress is doing 
something about this problem. The fact that we're bringing it 
up, the fact that we're exposing it, the fact that we've got 
media here today, the fact that this is going to be in the 
newspapers, the fact that this will be on the front page of the 
Svenson Dogblat tomorrow morning in Sweden. The fact that the 
film that I'm taking here is going to be playing in Sweden in 
front of all of Sweden is showing that the United States does, 
in fact, have the resolve to do something about this problem.
    So, I guess the one thing I can say is, for the sake of 
American children, don't stop these hearings. Don't ever stop 
having these hearings. Have as many as you can and bring as 
many witnesses in as you can and hold as many people 
accountable, as need be held accountable until we change the 
way in which we find our children.
    Mr. Chabot. Thank you. Mr. Sylvester, do you want to add 
anything?
    Mr. Sylvester. Nothing further.
    Mr. Chabot. OK. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. If you'll indulge me, 
as you know, I have a long list of suggestions at the end of my 
testimony. But I guess the three things that I would ask would 
be publicity, advocacy, and linkage.
    There's no substitute for the bright light of publicity. 
That's what the Human Rights Reports are all about. That's the 
very useful purpose they have served. As Lady Meyer has 
indicated, this subject should be dealt with in the Human 
Rights Reports, on the merits, for the reasons that I set forth 
in my statement. Those reports are read by everybody. 
Governments pay attention to them. The governments that we're 
talking about today are particularly sensitive to any 
allegations of human rights violations.
    It's particularly tough for us to stomach what they're 
doing because all of them tout themselves as premiere defenders 
of children's rights. Sweden lectures the world on being the 
first country in the world to ratify The Hague Convention on 
the Rights of the Child. What they do, systematically--I agree, 
we're not supposed to be talking about individual cases in 
terms of Congressional actions and so on--but what their 
institutions and legal and social welfare systems do violate 
their international treaty obligations under these human rights 
instruments. So the human rights reports are crucial.
    Also, a useful report to Congress on Hague Convention 
compliance. The report that you received this year, Mr. 
Chairman, did not comply with your reporting requirement. The 
last part of it, these so-called details of each case are 20 to 
25 pages of gobbledy-gook because really, in my view, poor 
legal advice was given to the drafters of the report. They took 
out even the country names, let alone the people's names, that 
even if your case is there--and, like Mr. Sylvester's, my case 
is not there as it should be--even if your case is there, it's 
hard to find.
    So publicity through these reports, if they are 
disseminated the way they should be, would be very effective. 
The report to you on Hague Convention compliance I don't think 
has been put on the Internet. It should go to all American 
courts, so that a judge in Idaho who is dealing with a case 
involving Austria or Sweden can look and see what's going to 
happen to children he allows to go back to Austria or Sweden.
    Second, Mr. Chairman, advocacy. American parents have no 
advocate now except the Congress. The National Center should be 
allowed to play that role by shifting from incoming cases to 
outgoing cases. That's what our tax dollars should be used for. 
With regard to the central authority, I guess the hope, the 
scenario would be maybe the Civil Division of the Justice 
Department, which would take an assertive advocacy role and if 
the State Department wanted to play diplomatic games instead of 
doing its job, the Justice Department would not hesitate to 
come to Congress or the media, for that matter--the same with 
the National Center--to get the job done.
    Finally, Mr. Chairman, linkage. No child support agreements 
with these countries. No new law enforcement treaties with 
countries that are directly engaged in criminal conduct against 
our citizens. This interpretation of article 13b of The Hague 
Convention that I mentioned: No sending children back to 
countries where there's no enforceable access or visitation.
    That, essentially, is what happened between France and 
Germany. The French judges finally had enough and started to 
refuse to send children back to Germany. Some changes happened 
very quickly. The same thing would happen here, but the 
executive branch has failed to educate American courts. So, 
time and again, foreign governments litigate in our courts and 
do very well against American citizens, especially in 
California in the O'Donohue case and in the Benson case. 
Against Mark Larson in the Tenth Circuit, the Swedish 
government did very well in terms of concealing what's going on 
in their country and in obtaining favorable rulings. So the 
Federal Government needs to educate our courts and I think then 
there will be some changes in U.S. courts that will change the 
conduct of the other governments. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. Now we'll recognize Mr. 
Payne for questions.
    Mr. Payne. Thank you very much. I certainly also appreciate 
your coming and, although I didn't hear all of you, what I did 
hear certainly is disturbing, and we do appreciate the Chairman 
taking this matter up.
    Just on this question of article 13, when it is invoked 
when a child expresses a desire to stay with an abducting 
parent. My question is about the age of the children, and how 
can a young child be put in a position to make such a decision, 
and I wonder how that whole age thing has worked and if there 
is any consideration of--are there any exceptions to the age 
business?
    Lady Meyer. I think I should--I'm a specialist on article 
13b, obviously. That is actually one of the problems: Article 
13b is the only exception to the immediate return of the child 
to the country of habitual residence, but The Hague Convention 
is not very clear. The Hague Convention states that a child 
should be automatically returned unless, under article 13b, the 
child objects and has obtained an age and a maturity to which 
the child can express its objection.
    Obviously this was meant to apply for older children of the 
age of 14 and above--although even at that age it could be a 
problem. But, unfortunately, some countries, and specifically 
Germany--as the other cases I have presented show--have used 
this exception, article 13b, not to return children. Children 
as young as three and five have indeed not been returned to 
America, Britain, and France because the judges estimated that 
the children ``objected'' to their return.
    This is one of the big, big issues of The Hague Convention. 
In itself, it's a good piece of legislation. It's the only 
piece of legislation one has. But it has no teeth to it. Every 
country can interpret it in its own way and there are, for the 
moment, as we were discussing before, no bodies to oversee the 
implementation of The Hague Convention. So until very recently, 
the countries that did not abide by The Hague Convention were 
not exposed.
    Foreign countries, Germany in particular--I'm saying 
Germany because that's where my problem is--consistently 
answers that their judicial system is independent and they 
cannot intervene. But that is not right because if a country 
signs an international convention, there should be a method for 
every country to abide by and implement it in more or less the 
same way. I think the ratio is that in some countries 95 
percent of the children are returned and in other countries 
only 5 percent of the children are returned. Article 13b and 
nonenforcement of court orders are the two major problems.
    Mr. Payne. Yes.
    Mr. Sylvester. If I may add for one brief moment, on the 
element of age, I think it's noteworthy that the courts in 
Austria used one major aspect to not enforce their own valid 
and final order. It was a comment submitted from an expert 
opinion, they claimed to be expert, a child psychologist in 
Austria who claimed the very ubiquitous comment that said any 
child between the ages of 6 months and 6 years would be 
psychologically harmed to be separated from the mother. Now 
it's my understanding The Hague Convention applies to all 
children 16 and under. So I think that, in fact, there's bias 
that relates to the issue of age that also yields against 
fathers and goes together with the culturally abhorrent issue 
of having fathers having custody.
    One final issue to add to Lady Meyer's comment relative to 
the independent judiciary and the central authority's 
involvement, that's been the party line from the Austrian 
central authority from day one; they can't involve themselves 
as an independent judiciary. Yet, I read article 7 of The Hague 
Convention that they have an obligation to cooperate and to 
educate the judges, and yet the Austrian central authorities 
and continued to maintain the party line.
    In closing, through this report that I just received last 
week, following the meeting of March 2, I think it's quite 
noteworthy that the Austrian central authority had commented 
that the Sylvester case was unique, but he said specifically, 
that Austrian judges were not unfamiliar with The Hague 
process. He said, more specifically, they called our 
attention--meaning the DOS--to the fact that the central 
authority directly provides information, including prior 
decisions that might apply to the courts in the first instance. 
This central authority underscored in this information the 
roles of Austria under The Hague Convention.
    If, in fact, there was some continuity of information from 
those representatives from the DOS that went to Austria in 
March 1999--those people weren't on the issue of my case back 
in 1996 and early on--I think they could have called the 
central authorities on their issue of the party line that says 
that the Austrian central authority has no responsibility to 
intercede with the independent judiciary. Yet they claim that 
they, in fact, do in many cases.
    Mr. Payne. Thank you. My time has expired, but I was just 
wondering if--I hear the case of Denmark, Austria, and your 
cases in Sweden. I was just wondering, maybe, Lady Meyer, since 
you're from Europe, is there--and I've heard you talk about 
Germany--are there any countries in Europe that have a more 
liberal policy? Is this a big problem--I would imagine if we 
have heard these cases here, within Europe, it must be even a 
greater case and with the new EU and Euro currency and borders 
down and all of that, how does all that interplay?
    Lady Meyer. Unfortunately, it doesn't interplay well 
because it's the same problem. In fact, the country that has 
the biggest problem with Germany is France, because they're 
border countries so there are a lot of intermarriages. The 
country that we represent, I keep on talking about Austria and 
Germany because I know that for a fact, and because Austria and 
Germany have similar systems of law. I mean, it's two names, 
but it's the same country judicially. But I believe that Sweden 
also has a similar system of law to Germany and Austria.
    In Europe, unfortunately, under the Maastricht Treaty, we 
are still mainly dealing with commercial matters, i.e. the 
Euro, but we have not achieved a sufficient degree of 
cooperation in justice and home affairs matters, which is where 
cases like ours refer to. But there is at least a new 
Convention because I've been talking a lot in Europe, that's 
being signed--not ratified yet, but signed--in Brussels to try 
and make sure that a custody order made in one European country 
is recognized in another.
    But this is still far away down the line. There is still a 
huge problem. I know that the French government is very 
outraged by what's going on with Germany. But, so far, they've 
felt a little bit alone as though they were the only country 
complaining. They need support because of one nationality 
happens more and more.
    In Europe, in fact, the figures are growing fast, because 
it can happen even between parents of one nationality. In the 
cases I've presented, between two American parents; i.e. one 
American parent taking the plane and fleeing to another 
jurisdiction. So child abduction is going to happen more, and 
something really has to be done to stop it. I find it's not 
good enough for countries to say, they can't intervene; our 
judges are independent. Because that's not an answer.
    Mr. Payne. Thank you, very much, Mr. Chairman.
    Mr. Chabot. I thank the gentleman from New Jersey and 
recognize the gentleman from California, Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. Obviously, our State 
Department has to do more in this area. I'm chagrined, Mr. 
Sylvester, that you didn't get your Freedom of Information Act 
documents within a week. I don't know if there's somebody from 
the State Department here that can comment, but perhaps we 
could get an assurance from the State Department that you'll 
get--is there any reason he can't get those documents in a 
week? Please identify yourself for the record.
    Mr. Chabot. Would you come forward to one of the 
microphones?
    Ms. Marshall. My name is Mary Marshall. I'm the Director of 
Children's Issues in the Department of State. What happened to 
Mr. Sylvester and his FOIA request is outrageous. We had files 
on him that went through the system when he requested, they 
went down into the bowels of the earth, and a report came back 
to Mr. Sylvester directly saying--Tom, am I right?--``No 
record.'' Isn't that what it said?
    Mr. Sherman. I have a number of other questions, so I'm 
going to cut you short. Does he get his documents in a week, or 
he doesn't get his documents in a week?
    Ms. Marshall. We have arranged something now so that he can 
get his documents, but not under a FOIA. But it will be 
everything he needs. Everything that he's asked for.
    Mr. Sherman. How long will that take?
    Ms. Marshall. We'll do everything we can to get it in a 
week.
    Mr. Sylvester. Is there a reason why the information is not 
provided under a FOIA?
    Mr. Sherman. Again, I have only 5 minutes. If you're going 
to get your documents in a week, that's fine. I think we should 
remember what France did--and this is apocryphal perhaps--back 
in the 1980's when Japan was importing VCR's into France. 
France wanted a piece of that market. They said that every VCR 
from Japan had to be cleared by Customs in a particular small 
inland French town. It happened to be the place where they 
stopped the Moorish invasion. Perhaps we could have a rule 
that, until this matter is resolved, that all Volvos would have 
to be cleared through Customs, et cetera, in either Juno, 
Alaska, perhaps in----
    Mr. Marinkovich. Simi Valley, California. I'll take the job 
on a volunteer basis.
    Mr. Sherman. That might also be good. Because I think it's 
absurd that a country with such a huge trade deficit, which 
means we're accepting more goods from the rest of the world 
than they are accepting from us, and I believe we have a trade 
deficit with at least two or perhaps all three of the countries 
mentioned, could not use the economic stick. Other than that, I 
don't see how we can blame our State Department for not getting 
anything. They don't have anything to offer. They have no 
sticks; they have no carrots. This report is wonderful. Maybe 
the video over there may show in Sweden. But unless there are 
consequences and those consequences have to mean fewer Volvos 
until this matter's resolved.
    Austria spends millions of dollars trying to enhance its 
reputation here in Washington. All this cultural stuff. Well 
if--paintings are wonderful--but if those paintings symbolize 
the theft of children, then perhaps that word needs to get out, 
and then the Austrian taxpayers will have wasted their money 
trying to popularize culture, while, at the same time, 
following legal principals that seem to harken to a very racist 
tradition and a tradition that has not brought any joy to the 
world. If I understand the Austrian case well, they believe 
it's culturally abhorrent to send a child of both Austrian and 
American parentage back to America. Is that--do they allege 
that that's because it's the mother involved or is that because 
they just think Austria's a cooler cultural place?
    Mr. Sylvester. For clarification, the issue and comment by 
the Austrian authorities was that the potential scenario was 
most culturally it seemed likely that the mother, rather than 
her father, would be separated from her child.
    Mr. Sherman. So it's a preference for mothers over fathers, 
except, of course, when they're American mothers.
    Lady Meyer. I would interrupt there, because it's the 
national, rather than the mother or the father. For instance, 
in the cases I am presenting, I'm quoting the judge--``The 
mother works and, therefore, can support the child'' when it 
was the German mother who was the abductor. And then, ``The 
mother works and, therefore, has no time for the child'' when 
it was me and another American woman who were victim parents.
    Mr. Sherman. So what we see here is racism, masquerading as 
sexism.
    Lady Meyer. Yes. It's just that more mothers are abducting, 
in general, than fathers, because the women live abroad with 
their husbands, rather than the other way around.
    Mr. Sherman. But it doesn't really matter. The cultural 
abhorrence here is an abhorrence for anything that isn't 
Austrian or German. I'd like, though, to bring into the mix 
here a different case. I realize your not here to comment on 
this case, but the case of Israel Wurmberg, abducted from my 
district or just outside my district. Here the abduction was to 
Costa Rica, which has not signed The Hague Convention.
    Yet, our State Department, you would think, would give 
enough clout to those concerned with children to say let's take 
Costa Rica out of the CBI until such time as Costa Rica signs 
and abides by The Hague Convention. But we have a separate 
department that deals with children and they're allowed to ask. 
They're allowed to testify. But they're not allowed to do the 
one thing that could possibly work, and that is deal with the 
trade issue and make it clear that a country cannot ask for the 
special trade concessions of CBI and treat American children 
this way.
    I, for the record, would want to submit a position to the 
State Department as to what proposals they have come up with, 
Administrative or legislative, to hit trade relations and 
imports to the United States whenever a country violates The 
Hague. Also, to make any foreign aid or membership in CBI 
contingent upon signing and abiding by The Hague agreement. 
Until then, we hit the high water mark when we get Mr. 
Marinkovich into the Swedish newspapers. But I don't want the 
headline to be: Americans talk but won't do anything. There are 
docks in Juneau and they can accommodate Volvos. I look forward 
to a State Department attitude that is substantive in the 
ramifications of ignoring the rights of Americans and, more 
importantly, the children involved.
    Just one parting comment. I mean, what has happened to 
Israel Wurmberg is just outrageous. What has happened there is, 
not only have the American courts given the American father 
custody, but the Costa Rican courts have also decreed the 
American father should have custody. Yet, in spite of this, 
Costa Rican law enforcement authorities simply ignore the 
paperwork and just side with an illegal conclusion. So I will 
be talking to the Costa Rican Ambassador here. I would hope 
that we would invite the Ambassadors of Denmark, Sweden, and 
Germany to respond to a transcript of these hearings, both so 
that we get a well-rounded picture, but also so that they're 
aware of how seriously at least some, and I think all of us in 
Congress, take these matters.
    Thank you, Mr. Chairman.
    Mr. Chabot. We thank all of the witnesses here this 
afternoon and this morning for their testimony. My final 
comment would be that I think you all have the right as 
American citizens to have your government look at this as a 
highest priority, really. I mean, this has obviously terribly 
impacted your lives. Nobody should have to go through what 
you've gone through.
    We have The Hague Commission; we've got treaties; we've got 
laws, but they all amount to nothing if they're not going to be 
enforced. As American citizens, you have the right to have 
those laws enforced to the greatest extent possible and, in 
many instances, it looks like one side's playing by the rules--
yourselves, for example--but the other side isn't playing by 
the rules and, according to your testimony, Mr. Sylvester, 
according to your wife's own statement, she's being backed up 
by her government. They're on her side, by implication, yours 
isn't. That's disgraceful, as far as I'm concerned.
    Just listening to this testimony, as a Member of Congress, 
this just makes my blood boil that you've had to go through 
this, it has to be terribly frustrating to you. If I were in 
your shoes, I think my attitude would be, it's time to send the 
Marines in. We obviously don't have the power to do that here 
today, but I certainly believe that your testimony has been 
successful to the extent that it's brought attention to this. 
It's brought the Administration's attention to this, and we'll 
do all we can to make sure that you ultimately prevail in 
something that is so important to you, and also so important to 
your children, because they've got the right to be with you 
too.
    So, thank you for your testimony. Without objection, each 
Member will have 5 days to submit any questions or comments. 
Thank you very much and we're adjourned.
    [Whereupon, at 1:19 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 14, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3699.001
    
    [GRAPHIC] [TIFF OMITTED] T3699.002
    
    [GRAPHIC] [TIFF OMITTED] T3699.003
    
    [GRAPHIC] [TIFF OMITTED] T3699.004
    
    [GRAPHIC] [TIFF OMITTED] T3699.005
    
    [GRAPHIC] [TIFF OMITTED] T3699.006
    
    [GRAPHIC] [TIFF OMITTED] T3699.007
    
    [GRAPHIC] [TIFF OMITTED] T3699.008
    
    [GRAPHIC] [TIFF OMITTED] T3699.009
    
    [GRAPHIC] [TIFF OMITTED] T3699.010
    
    [GRAPHIC] [TIFF OMITTED] T3699.011
    
    [GRAPHIC] [TIFF OMITTED] T3699.012
    
    [GRAPHIC] [TIFF OMITTED] T3699.013
    
    [GRAPHIC] [TIFF OMITTED] T3699.014
    
    [GRAPHIC] [TIFF OMITTED] T3699.015
    
    [GRAPHIC] [TIFF OMITTED] T3699.016
    
    [GRAPHIC] [TIFF OMITTED] T3699.017
    
    [GRAPHIC] [TIFF OMITTED] T3699.018
    
    [GRAPHIC] [TIFF OMITTED] T3699.019
    
    [GRAPHIC] [TIFF OMITTED] T3699.020
    
    [GRAPHIC] [TIFF OMITTED] T3699.021
    
    [GRAPHIC] [TIFF OMITTED] T3699.022
    
    [GRAPHIC] [TIFF OMITTED] T3699.023
    
    [GRAPHIC] [TIFF OMITTED] T3699.024
    
    [GRAPHIC] [TIFF OMITTED] T3699.025
    
    [GRAPHIC] [TIFF OMITTED] T3699.026
    
    [GRAPHIC] [TIFF OMITTED] T3699.027
    
    [GRAPHIC] [TIFF OMITTED] T3699.028
    
    [GRAPHIC] [TIFF OMITTED] T3699.029
    
    [GRAPHIC] [TIFF OMITTED] T3699.030
    
    [GRAPHIC] [TIFF OMITTED] T3699.031
    
    [GRAPHIC] [TIFF OMITTED] T3699.032
    
    [GRAPHIC] [TIFF OMITTED] T3699.033
    
    [GRAPHIC] [TIFF OMITTED] T3699.034
    
    [GRAPHIC] [TIFF OMITTED] T3699.035
    
    [GRAPHIC] [TIFF OMITTED] T3699.036
    
    [GRAPHIC] [TIFF OMITTED] T3699.037
    
    [GRAPHIC] [TIFF OMITTED] T3699.038
    
    [GRAPHIC] [TIFF OMITTED] T3699.039
    
    [GRAPHIC] [TIFF OMITTED] T3699.040
    
    [GRAPHIC] [TIFF OMITTED] T3699.041
    
    [GRAPHIC] [TIFF OMITTED] T3699.042
    
    [GRAPHIC] [TIFF OMITTED] T3699.043
    
    [GRAPHIC] [TIFF OMITTED] T3699.044
    
    [GRAPHIC] [TIFF OMITTED] T3699.045
    
    [GRAPHIC] [TIFF OMITTED] T3699.046
    
    [GRAPHIC] [TIFF OMITTED] T3699.047
    
    [GRAPHIC] [TIFF OMITTED] T3699.048
    
    [GRAPHIC] [TIFF OMITTED] T3699.049
    
    [GRAPHIC] [TIFF OMITTED] T3699.050
    
    [GRAPHIC] [TIFF OMITTED] T3699.051
    
    [GRAPHIC] [TIFF OMITTED] T3699.052
    
    [GRAPHIC] [TIFF OMITTED] T3699.053
    
    [GRAPHIC] [TIFF OMITTED] T3699.054
    
    [GRAPHIC] [TIFF OMITTED] T3699.055
    
    [GRAPHIC] [TIFF OMITTED] T3699.056
    
    [GRAPHIC] [TIFF OMITTED] T3699.057
    
    [GRAPHIC] [TIFF OMITTED] T3699.058
    
    [GRAPHIC] [TIFF OMITTED] T3699.059
    
    [GRAPHIC] [TIFF OMITTED] T3699.060
    
    [GRAPHIC] [TIFF OMITTED] T3699.061
    
    [GRAPHIC] [TIFF OMITTED] T3699.062
    
    [GRAPHIC] [TIFF OMITTED] T3699.063
    
    [GRAPHIC] [TIFF OMITTED] T3699.064
    
    [GRAPHIC] [TIFF OMITTED] T3699.065
    
    [GRAPHIC] [TIFF OMITTED] T3699.066
    
    [GRAPHIC] [TIFF OMITTED] T3699.067
    
    [GRAPHIC] [TIFF OMITTED] T3699.068
    
    [GRAPHIC] [TIFF OMITTED] T3699.069
    
    [GRAPHIC] [TIFF OMITTED] T3699.070
    
    [GRAPHIC] [TIFF OMITTED] T3699.071
    
    [GRAPHIC] [TIFF OMITTED] T3699.072
    
    [GRAPHIC] [TIFF OMITTED] T3699.073
    
    [GRAPHIC] [TIFF OMITTED] T3699.074
    
    [GRAPHIC] [TIFF OMITTED] T3699.075
    
    [GRAPHIC] [TIFF OMITTED] T3699.076
    
    [GRAPHIC] [TIFF OMITTED] T3699.077
    
    [GRAPHIC] [TIFF OMITTED] T3699.078
    
    [GRAPHIC] [TIFF OMITTED] T3699.079
    
    [GRAPHIC] [TIFF OMITTED] T3699.080
    
    [GRAPHIC] [TIFF OMITTED] T3699.081
    
    [GRAPHIC] [TIFF OMITTED] T3699.082
    
    [GRAPHIC] [TIFF OMITTED] T3699.083
    
    [GRAPHIC] [TIFF OMITTED] T3699.084
    
    [GRAPHIC] [TIFF OMITTED] T3699.085
    
    [GRAPHIC] [TIFF OMITTED] T3699.086
    
    [GRAPHIC] [TIFF OMITTED] T3699.087
    
    [GRAPHIC] [TIFF OMITTED] T3699.088
    
    [GRAPHIC] [TIFF OMITTED] T3699.089
    
    [GRAPHIC] [TIFF OMITTED] T3699.090
    
    [GRAPHIC] [TIFF OMITTED] T3699.091
    
    [GRAPHIC] [TIFF OMITTED] T3699.092
    
    [GRAPHIC] [TIFF OMITTED] T3699.093
    
    [GRAPHIC] [TIFF OMITTED] T3699.094
    
    [GRAPHIC] [TIFF OMITTED] T3699.095
    
    [GRAPHIC] [TIFF OMITTED] T3699.096
    
    [GRAPHIC] [TIFF OMITTED] T3699.097
    
    [GRAPHIC] [TIFF OMITTED] T3699.098
    
    [GRAPHIC] [TIFF OMITTED] T3699.099
    
    [GRAPHIC] [TIFF OMITTED] T3699.100
    
    [GRAPHIC] [TIFF OMITTED] T3699.101
    
    [GRAPHIC] [TIFF OMITTED] T3699.102
    
    [GRAPHIC] [TIFF OMITTED] T3699.103
    
    [GRAPHIC] [TIFF OMITTED] T3699.104
    
    [GRAPHIC] [TIFF OMITTED] T3699.105
    
    [GRAPHIC] [TIFF OMITTED] T3699.106
    
    [GRAPHIC] [TIFF OMITTED] T3699.107
    
    [GRAPHIC] [TIFF OMITTED] T3699.108
    
    [GRAPHIC] [TIFF OMITTED] T3699.109
    
    [GRAPHIC] [TIFF OMITTED] T3699.110
    
    [GRAPHIC] [TIFF OMITTED] T3699.111
    
    [GRAPHIC] [TIFF OMITTED] T3699.112
    
    [GRAPHIC] [TIFF OMITTED] T3699.113
    
    [GRAPHIC] [TIFF OMITTED] T3699.114
    
    [GRAPHIC] [TIFF OMITTED] T3699.115
    
    [GRAPHIC] [TIFF OMITTED] T3699.116
    
    [GRAPHIC] [TIFF OMITTED] T3699.117
    
    [GRAPHIC] [TIFF OMITTED] T3699.118
    
    [GRAPHIC] [TIFF OMITTED] T3699.119
    
    [GRAPHIC] [TIFF OMITTED] T3699.120
    
    [GRAPHIC] [TIFF OMITTED] T3699.121
    
    [GRAPHIC] [TIFF OMITTED] T3699.122
    
    [GRAPHIC] [TIFF OMITTED] T3699.123
    
    [GRAPHIC] [TIFF OMITTED] T3699.124
    
    [GRAPHIC] [TIFF OMITTED] T3699.125
    
    [GRAPHIC] [TIFF OMITTED] T3699.126
    
    [GRAPHIC] [TIFF OMITTED] T3699.127
    
    [GRAPHIC] [TIFF OMITTED] T3699.128
    
    [GRAPHIC] [TIFF OMITTED] T3699.129
    
    [GRAPHIC] [TIFF OMITTED] T3699.130
    
    [GRAPHIC] [TIFF OMITTED] T3699.131
    
    [GRAPHIC] [TIFF OMITTED] T3699.132
    
    [GRAPHIC] [TIFF OMITTED] T3699.133
    
    [GRAPHIC] [TIFF OMITTED] T3699.134
    
    [GRAPHIC] [TIFF OMITTED] T3699.135
    
    [GRAPHIC] [TIFF OMITTED] T3699.136
    
    [GRAPHIC] [TIFF OMITTED] T3699.137
    
    [GRAPHIC] [TIFF OMITTED] T3699.138
    
    [GRAPHIC] [TIFF OMITTED] T3699.139
    
    [GRAPHIC] [TIFF OMITTED] T3699.140
    
    [GRAPHIC] [TIFF OMITTED] T3699.141
    
    [GRAPHIC] [TIFF OMITTED] T3699.142
    
    [GRAPHIC] [TIFF OMITTED] T3699.143
    
    [GRAPHIC] [TIFF OMITTED] T3699.144
    
    [GRAPHIC] [TIFF OMITTED] T3699.145
    
    [GRAPHIC] [TIFF OMITTED] T3699.146
    
    [GRAPHIC] [TIFF OMITTED] T3699.147
    
    [GRAPHIC] [TIFF OMITTED] T3699.148
    
    [GRAPHIC] [TIFF OMITTED] T3699.149
    
    [GRAPHIC] [TIFF OMITTED] T3699.150
    
    [GRAPHIC] [TIFF OMITTED] T3699.151
    
    [GRAPHIC] [TIFF OMITTED] T3699.152
    
    [GRAPHIC] [TIFF OMITTED] T3699.153
    
    [GRAPHIC] [TIFF OMITTED] T3699.154
    
    [GRAPHIC] [TIFF OMITTED] T3699.155
    
    [GRAPHIC] [TIFF OMITTED] T3699.156
    
    [GRAPHIC] [TIFF OMITTED] T3699.157
    
    [GRAPHIC] [TIFF OMITTED] T3699.158
    
    [GRAPHIC] [TIFF OMITTED] T3699.159
    
    [GRAPHIC] [TIFF OMITTED] T3699.160
    
    [GRAPHIC] [TIFF OMITTED] T3699.161
    
    [GRAPHIC] [TIFF OMITTED] T3699.162
    
    [GRAPHIC] [TIFF OMITTED] T3699.163
    
    [GRAPHIC] [TIFF OMITTED] T3699.164
    
    [GRAPHIC] [TIFF OMITTED] T3699.165
    
    [GRAPHIC] [TIFF OMITTED] T3699.166
    
    [GRAPHIC] [TIFF OMITTED] T3699.167
    
    [GRAPHIC] [TIFF OMITTED] T3699.168
    
    [GRAPHIC] [TIFF OMITTED] T3699.169
    
    [GRAPHIC] [TIFF OMITTED] T3699.170
    
    [GRAPHIC] [TIFF OMITTED] T3699.171
    
    [GRAPHIC] [TIFF OMITTED] T3699.172
    
    [GRAPHIC] [TIFF OMITTED] T3699.173
    
    [GRAPHIC] [TIFF OMITTED] T3699.174
    
    [GRAPHIC] [TIFF OMITTED] T3699.175
    
    [GRAPHIC] [TIFF OMITTED] T3699.176
    
    [GRAPHIC] [TIFF OMITTED] T3699.177
    
    [GRAPHIC] [TIFF OMITTED] T3699.178
    
    [GRAPHIC] [TIFF OMITTED] T3699.179
    
    [GRAPHIC] [TIFF OMITTED] T3699.180
    
    [GRAPHIC] [TIFF OMITTED] T3699.181
    
    [GRAPHIC] [TIFF OMITTED] T3699.182
    
    [GRAPHIC] [TIFF OMITTED] T3699.183
    
    [GRAPHIC] [TIFF OMITTED] T3699.184
    
    [GRAPHIC] [TIFF OMITTED] T3699.185
    
    [GRAPHIC] [TIFF OMITTED] T3699.186
    
    [GRAPHIC] [TIFF OMITTED] T3699.187
    
    [GRAPHIC] [TIFF OMITTED] T3699.188
    
    [GRAPHIC] [TIFF OMITTED] T3699.189
    
    [GRAPHIC] [TIFF OMITTED] T3699.190
    
    [GRAPHIC] [TIFF OMITTED] T3699.191
    
    [GRAPHIC] [TIFF OMITTED] T3699.192
    
    [GRAPHIC] [TIFF OMITTED] T3699.193
    
    [GRAPHIC] [TIFF OMITTED] T3699.194
    
    [GRAPHIC] [TIFF OMITTED] T3699.195
    
    [GRAPHIC] [TIFF OMITTED] T3699.196
    
    [GRAPHIC] [TIFF OMITTED] T3699.197
    
    [GRAPHIC] [TIFF OMITTED] T3699.198
    
    [GRAPHIC] [TIFF OMITTED] T3699.199
    
    [GRAPHIC] [TIFF OMITTED] T3699.200
    
    [GRAPHIC] [TIFF OMITTED] T3699.201
    
    [GRAPHIC] [TIFF OMITTED] T3699.202
    
    [GRAPHIC] [TIFF OMITTED] T3699.203
    
    [GRAPHIC] [TIFF OMITTED] T3699.204
    
    [GRAPHIC] [TIFF OMITTED] T3699.205
    
    [GRAPHIC] [TIFF OMITTED] T3699.206
    
    [GRAPHIC] [TIFF OMITTED] T3699.207
    
    [GRAPHIC] [TIFF OMITTED] T3699.208
    
    [GRAPHIC] [TIFF OMITTED] T3699.209
    
    [GRAPHIC] [TIFF OMITTED] T3699.210
    
    [GRAPHIC] [TIFF OMITTED] T3699.211
    
    [GRAPHIC] [TIFF OMITTED] T3699.212
    
    [GRAPHIC] [TIFF OMITTED] T3699.213
    
    [GRAPHIC] [TIFF OMITTED] T3699.214
    
    [GRAPHIC] [TIFF OMITTED] T3699.215
    
    [GRAPHIC] [TIFF OMITTED] T3699.216
    
    [GRAPHIC] [TIFF OMITTED] T3699.217
    
    [GRAPHIC] [TIFF OMITTED] T3699.218
    
    [GRAPHIC] [TIFF OMITTED] T3699.219
    
    [GRAPHIC] [TIFF OMITTED] T3699.220
    
    [GRAPHIC] [TIFF OMITTED] T3699.221
    
    [GRAPHIC] [TIFF OMITTED] T3699.222
    
    [GRAPHIC] [TIFF OMITTED] T3699.223
    
    [GRAPHIC] [TIFF OMITTED] T3699.224
    
    [GRAPHIC] [TIFF OMITTED] T3699.225
    
    [GRAPHIC] [TIFF OMITTED] T3699.226
    
    [GRAPHIC] [TIFF OMITTED] T3699.227
    
    [GRAPHIC] [TIFF OMITTED] T3699.228
    
    [GRAPHIC] [TIFF OMITTED] T3699.229
    
    [GRAPHIC] [TIFF OMITTED] T3699.230
    
    [GRAPHIC] [TIFF OMITTED] T3699.231
    
    [GRAPHIC] [TIFF OMITTED] T3699.232
    
    [GRAPHIC] [TIFF OMITTED] T3699.233
    
    [GRAPHIC] [TIFF OMITTED] T3699.234
    
    [GRAPHIC] [TIFF OMITTED] T3699.235
    
    [GRAPHIC] [TIFF OMITTED] T3699.236
    
    [GRAPHIC] [TIFF OMITTED] T3699.237
    
    [GRAPHIC] [TIFF OMITTED] T3699.238
    
    [GRAPHIC] [TIFF OMITTED] T3699.239
    
    [GRAPHIC] [TIFF OMITTED] T3699.240
    
    [GRAPHIC] [TIFF OMITTED] T3699.241
    
    [GRAPHIC] [TIFF OMITTED] T3699.242
    
    [GRAPHIC] [TIFF OMITTED] T3699.243
    
    [GRAPHIC] [TIFF OMITTED] T3699.244
    
    [GRAPHIC] [TIFF OMITTED] T3699.245
    
    [GRAPHIC] [TIFF OMITTED] T3699.246
    
    [GRAPHIC] [TIFF OMITTED] T3699.247
    
    [GRAPHIC] [TIFF OMITTED] T3699.248
    
    [GRAPHIC] [TIFF OMITTED] T3699.249
    
    [GRAPHIC] [TIFF OMITTED] T3699.250
    
    [GRAPHIC] [TIFF OMITTED] T3699.251
    
    [GRAPHIC] [TIFF OMITTED] T3699.252
    
    [GRAPHIC] [TIFF OMITTED] T3699.253
    
    [GRAPHIC] [TIFF OMITTED] T3699.254
    
    [GRAPHIC] [TIFF OMITTED] T3699.255
    
    [GRAPHIC] [TIFF OMITTED] T3699.256
    
    [GRAPHIC] [TIFF OMITTED] T3699.257
    
    [GRAPHIC] [TIFF OMITTED] T3699.258
    
    [GRAPHIC] [TIFF OMITTED] T3699.259
    
    [GRAPHIC] [TIFF OMITTED] T3699.260
    
    [GRAPHIC] [TIFF OMITTED] T3699.261
    
    [GRAPHIC] [TIFF OMITTED] T3699.262
    
    [GRAPHIC] [TIFF OMITTED] T3699.263
    
    [GRAPHIC] [TIFF OMITTED] T3699.264
    
    [GRAPHIC] [TIFF OMITTED] T3699.265
    
    [GRAPHIC] [TIFF OMITTED] T3699.266
    
    [GRAPHIC] [TIFF OMITTED] T3699.267
    
    [GRAPHIC] [TIFF OMITTED] T3699.268
    
    [GRAPHIC] [TIFF OMITTED] T3699.269
    
    [GRAPHIC] [TIFF OMITTED] T3699.270
    
    [GRAPHIC] [TIFF OMITTED] T3699.271
    
    [GRAPHIC] [TIFF OMITTED] T3699.272
    
    [GRAPHIC] [TIFF OMITTED] T3699.273
    
    [GRAPHIC] [TIFF OMITTED] T3699.274
    
    [GRAPHIC] [TIFF OMITTED] T3699.275
    
    [GRAPHIC] [TIFF OMITTED] T3699.276
    
    [GRAPHIC] [TIFF OMITTED] T3699.277
    
    [GRAPHIC] [TIFF OMITTED] T3699.278
    
    [GRAPHIC] [TIFF OMITTED] T3699.279
    
    [GRAPHIC] [TIFF OMITTED] T3699.280
    
    [GRAPHIC] [TIFF OMITTED] T3699.281
    
    [GRAPHIC] [TIFF OMITTED] T3699.282
    
    [GRAPHIC] [TIFF OMITTED] T3699.283
    
    [GRAPHIC] [TIFF OMITTED] T3699.284
    
    [GRAPHIC] [TIFF OMITTED] T3699.285
    
    [GRAPHIC] [TIFF OMITTED] T3699.286
    

</pre></body></html>
